                        U.S. Department of Agriculture

                           Office of Inspector General
                                     Southeast Region




             Audit Report

   Food Safety and Inspection Service
Followup Audit on the Inspector General’s
 Food Safety Initiative of Fiscal Year 2000




                                Report No. 24001-4-At
                                     September 2004
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington D.C. 20250


DATE:          September 13, 2004

REPLY TO
ATTN OF:       24001-4-At

SUBJECT:       Food Safety Initiative Followup

TO:            Barbara Masters
               Acting Administrator
               Food Safety and Inspection Service

ATTN:          Ronald F. Hicks
               Assistant Administrator
               Office of Program Evaluation, Enforcement and Review


This report presents the results of our review of the Food Safety Inspection Service’s (FSIS)
followup of the Office of Inspector General’s (OIG) Food Safety Initiative audits issued in
June 2000. The Senate Committee on Agriculture, Nutrition, and Forestry requested this review.
Your August 11, 2004, written response to the official draft report is included in its entirety
(except for the enclosures) as exhibit E with excerpts and the OIG position incorporated into the
Findings and Recommendations section of the report, where applicable.

We accept the management decisions for Recommendations Nos. 1, 2, and 3. Management
decisions for all report recommendations have been accepted. Please follow your agency’s
internal procedures in forwarding documentation for final action to the Office of the Chief
Financial Officer.

We appreciate the cooperation and assistance provided to our staff during the audit.



/s/
ROBERT W. YOUNG
Assistant Inspector General
  for Audit
Executive Summary
Followup Audit on the Inspector General’s Food Safety Initiative of Fiscal Year 2000
(Audit Report No. 24001-4-AT)

Results in Brief                This report presents the results of our followup review of the status of the
                                U.S. Department of Agriculture’s (USDA) Food Safety and Inspection
                                Service’s (FSIS) progress on implementing recommendations and addressing
                                problems identified in the June 2000 Office of Inspector General’s (OIG)
                                Food Safety Initiative, Meat and Poultry Products reports1. The purpose of
                                our review was to evaluate the corrective actions that were planned and taken
                                by FSIS in order to implement the 80 recommendations contained in these
                                reports. The current status of each recommendation is found in exhibits A
                                through D.

                                We concluded that only 58 of the 80 recommendations were successfully
                                implemented. FSIS and OIG failed to agree on the proper corrective actions
                                for 4 recommendations, and even though agreement had been reached on the
                                remaining 18 recommendations, FSIS did not implement all the actions it
                                said it would. We concluded that timely implementation of corrective actions
                                along with increased inspector's oversight could have resulted in improved
                                safety of meat and poultry products sold since 2000.

                                Status of Improvements in the Hazard Analysis and Critical Control Point
                                System

                                The first report in our 2000 Food Safety Initiative was on the implementation
                                of the Hazard Analysis and Critical Control Point (HACCP) system. HACCP
                                was designed to replace the old system of testing by touch, taste, and smell,
                                with a system based on science and laboratory diagnostics. In our report, we
                                proposed 20 recommendations to help FSIS improve the HACCP system.
                                FSIS agreed to take corrective actions on 17 of these recommendations,
                                specifically those related to ensuring that plants analyze all likely hazards,
                                identify all critical control points, establish appropriate critical limits
                                (temperature control, etc.), authority for oversight of all plant pathogen
                                testing, and access to all plant testing results.

                                FSIS has chosen not to impose timeframes on plants to fix problems cited by
                                FSIS. FSIS managers believe the plants will take action to avoid repeated
                                citations, but our 2000 audit found that repeated citations were a general
                                problem. FSIS had agreed in 2000 to establish procedures to deal with

1
    The four reports that were part of the Food Safety Initiative were: Audit No. 24001-3-At, “Implementation of the Hazard
    Analysis and Critical Control Point System”; Audit No. 24601-1-Ch, “Laboratory Testing of Meat and Poultry Products”;
    Audit No. 24099-3-Hy, “Imported Meat and Poultry Inspection, Phase I”; and Audit No. 24601-4-At, “District
    Enforcement Operations Compliance Activities”.
USDA/OIG-A/24001-4-At                                                                                              Page i
                   repeated citations, but as of this followup audit, it had not done so. (See
                   exhibit A for a detailed status on each recommendation.)

                   Status of Improvements in the Laboratory Testing Program

                   The second report in our 2000 Food Safety Initiative detailed our concerns
                   about FSIS’ program of laboratory testing. Laboratory testing is an integral
                   part of the HACCP system insofar as it was designed to provide timely and
                   accurate test results of plant samples collected by FSIS. Our report proposed
                   17 recommendations to help FSIS improve its testing program. FSIS
                   implemented 15 of these recommendations, establishing a quality control
                   system over laboratory diagnostics, improving management oversight
                   through field visits and better check samples, and replacing defective
                   Salmonella test kits.

                   For the other two recommendations, FSIS had begun some corrective actions
                   but had not completed them. For one of these recommendations, FSIS had
                   not performed the actions it had agreed to. (See exhibit B for a detailed
                   status on each recommendation.)

                   The incomplete or unperformed actions relate to the methods of sampling and
                   the timeliness of collecting the samples. During our original audit, we found
                   that although regulations required FSIS to test for nitrosamines, a carcinogen
                   occurring in bacon products, the agency did not do so because it had not
                   identified bacon-producing plants in its sampling universe. FSIS has not
                   completely remedied this condition. FSIS also continues to have problems
                   managing nonresponses to laboratory requests for samples from plants. We
                   had recommended that FSIS issue procedures to deal with cases in which
                   plants subject to Salmonella testing have not responded to a sample request
                   for over 30 days. Although it has moved toward controlling response time
                   for Salmonella samples, it has not issued the needed procedures. In
                   February 2002, FSIS reported that 140 plants had sample requests that were
                   over 18 months old.

                   Status of Improvements in the Imported Meat and Poultry Inspection
                   Program

                   FSIS has not implemented the agreed upon corrective actions for 11 of the
                   35 recommendations in our report on FSIS’ imported meat program, the third
                   report in our series in the 2000 Food Safety Initiative. For 1 of the remaining
                   24 recommendations in that report, FSIS has not agreed to corrective action.
                   (See exhibit C for a detailed status on each recommendation.)




USDA/OIG-A/24001-4-At                                                                      Page ii
                   FSIS’ imported meat program is based on the concept of equivalency of
                   foreign food safety systems. FSIS ensures foreign meat imports are
                   wholesome by determining that the countries’ food safety systems are
                   equivalent to ours and by reinspecting meat products on a spot-check basis to
                   verify their purity. In response to our Food Safety Initiative, FSIS has
                   improved its equivalency determinations by involving subject-matter experts
                   in these determinations, by providing clearer evidence of how the
                   determinations are made, and by performing site visits to verify the
                   documentation submitted by the foreign countries.

                   The actions that have not been implemented include improving oversight and
                   control of the program and ensuring the integrity of data entered into the
                   information system. We found during our 2000 Food Safety Initiative that
                   when FSIS reorganized in 1997, it did not ensure that the controls it
                   maintained under its pre-HACCP structure were carried over into the new
                   structure. This condition continues today. Responsibilities are not well
                   defined: lines of authority are unclear, supervisory oversight is minimal, and
                   internal control reviews are not conducted. Also, FSIS had agreed in 2000 to
                   perform the following actions, but as of our current audit had not done so:

                   •    FSIS performed no indepth assessments of its reinspection program, and

                   •    FSIS created no system to track establishments that were removed from
                        the list of those eligible to export to the United States.

                   As a result of these conditions in 2000, we recommended that the material
                   weaknesses in FSIS’ import inspection process be included in the agency’s
                   Federal Manager’s Financial Integrity Act report, but FSIS would not agree
                   to this.




USDA/OIG-A/24001-4-At                                                                    Page iii
                   Status of Improvements in FSIS’ Compliance Operations

                   In our report on FSIS’ compliance operations audit, the final report in our
                   series in the 2000 Food Safety Initiative, we proposed eight
                   recommendations, all of which have been satisfactorily implemented. FSIS
                   has acted to establish and track timeframes for investigating and resolving
                   violations, and to ensure that all consumer complaints are reviewed. FSIS
                   has identified high-priority firms and targeted its resources to large
                   metropolitan areas, high-risk firms, and firms with a history of violations.
                   FSIS provided training to ensure that all managers are able to properly
                   oversee violation case review and preparation. FSIS has also sought
                   legislative authority to impose civil monetary penalties against violators of
                   the meat and poultry inspection laws. (See exhibit D for a detailed status on
                   each recommendation.)

Recommendations
In Brief           We recommend that FSIS develop a plan to correct the deficiencies noted
                   where corrective actions were agreed upon but not implemented. Individual
                   recommendations that have not received management decision will be
                   tracked for each individual audit. For the four unresolved recommendations,
                   FSIS officials need to show how they plan to correct the noted conditions and
                   what the estimated timeframes are for completion. They also need to provide
                   any documentation that may assist in resolving these recommendations. For
                   the imported meat audit, additional recommendations to correct the noted
                   deficiencies have been included in the "FSIS Imported Meat and Poultry
                   Reinpection Process Phase II" (Audit No. 24099-4-At, issued February
                   2003).

Agency Response    In its August 11, 2004, written response to the draft report, FSIS provided a
                   plan showing corrective actions taken, the status of planned corrective
                   actions, and the target date for completion of the corrective actions. The plan
                   was developed to correct deficiencies noted in the draft report. We have
                   incorporated FSIS’ response along with our position in the Findings and
                   Recommendations section of this report. The agency’s entire response is
                   included in exhibit E.

OIG Position       We concur with FSIS’ proposed corrective actions and have accepted
                   management decisions to the three recommendations in the report.




USDA/OIG-A/24001-4-At                                                                     Page iv
Abbreviations Used in This Report

AIIS
  Automated Import Information System .............................................................................................. 35
AOAC
  Association of Analytical Chemists.................................................................................................... 28
ARS
  Agricultural Research Service ............................................................................................................ 19
CCP
  critical control point.............................................................................................................................. 4
CFR
  Code of Federal Regulations............................................................................................................... 27
CSO
  Consumer Safety Officer .................................................................................................................... 18
DEO
  District Enforcement Operations ........................................................................................................ 50
DO
  District Office ....................................................................................................................................... 5
FAIM
  Field Automation and Information Management ............................................................................... 38
FSIS
  Food Safety and Inspection Service...................................................................................................... 1
FSSC
  Food Safety Systems Correlation........................................................................................................ 18
FY
  Fiscal Year .......................................................................................................................................... 30
GAO
  Government Accountability Office....................................................................................................... 6
HACCP
  Hazard Analysis and Critical Control Point.......................................................................................... 1
ICS
  Internal Control Staff .......................................................................................................................... 34
IIC
  Inspector-in-Charge ............................................................................................................................ 21
IPD
  International Policy Division .............................................................................................................. 37
LM
  Listeria Monocytogenes ........................................................................................................................ 2
MARCIS
  Microbiological and Residue Computer Information System ............................................................ 38
MLG
  Microbiology Laboratory Guide ......................................................................................................... 28
NR
  Noncompliance Records ....................................................................................................................... 5
OIG
  Office of Inspector General .................................................................................................................. 1

USDA/OIG-A/24001-4-At                                                                                                                            Page v
OMB
  Office of Management and Budget..................................................................................................... 33
PBIS
  Performance-Based Inspection System................................................................................................. 5
PR
  Pathogen Reduction ............................................................................................................................ 21
PREP
  Pathogen Reduction Enforcement Program........................................................................................ 20
QAB
  Quality Assurance Branches ............................................................................................................... 28
SOP
  Standard Operating Procedures........................................................................................................... 27
SPOSL
  Special Project and Outbreak Support Laboratory ............................................................................. 30
SSOP
  Sanitation Standard Operating Procedures ........................................................................................... 1
TSC
  Technical Service Center .................................................................................................................... 17
USDA
  U.S. Department of Agriculture............................................................................................................ 1




USDA/OIG-A/24001-4-At                                                                                                                    Page vi
Table of Contents
Executive Summary ..................................................................................................................................i
Background and Objectives ..................................................................................................................... 1
Findings and Recommendations ............................................................................................................. 4
   Section 1: Status of Recommendations to Improve the HACCP System ..................................... 4
     Corrective Actions Not Yet Agreed Upon........................................................................................ 4
     Corrective Actions Agreed Upon But Not Implemented.................................................................. 6
   Section 2: Status of Recommendations to Improve FSIS’ Laboratory Testing Program........... 8
     Corrective Actions Agreed Upon But Not Implemented.................................................................. 8
     Corrective Actions Implemented But Not Effective......................................................................... 8
   Section 3: Status of Recommendations to Improve the Imported Meat and Poultry Inspection
   Program ............................................................................................................................................. 11
     Corrective Actions Not Yet Agreed Upon...................................................................................... 11
     Corrective Actions Agreed Upon But Not Implemented................................................................ 12
   Section 4: Status of Recommendations to Improve FSIS’ Compliance Operations.................. 16
Scope and Methodology ......................................................................................................................... 17
Exhibit A - Summary of the Status of Recommendations –................................................................. 18
Implementation of HACCP System Audit............................................................................................. 18
Exhibit B - Summary of the Status of Recommendations –................................................................. 23
Laboratory Testing of Meat and Poultry Products Audit..................................................................... 23
Exhibit C - Summary of the Status of Recommendations - Imported ................................................. 33
Meat and Poultry Inspection Process - Phase I Audit.......................................................................... 33
Exhibit D - Summary of the Status of Recommendations –................................................................. 48
District Enforcement Operations - Compliance Activities Audit ......................................................... 48
Exhibit E - FSIS Response to the Draft Report.................................................................................... 51




USDA/OIG-A/24001-4-At                                                                                                                         Page vii
Background and Objectives
Background         This review was initiated by a request from Senator Tom Harkin, Chairman,
                   U.S. Senate Committee on Agriculture, Nutrition and Forestry; and Senator
                   Richard Lugar, Ranking Republican Member. In a memorandum dated
                   July 26, 2002, Senators Harkin and Lugar requested that the Office of
                   Inspector General (OIG) examine the U.S. Department of Agriculture
                   (USDA), Food Safety and Inspection Service’s (FSIS) progress on
                   implementing and addressing problems identified in our June 2000 Food
                   Safety Initiative review.

                   FSIS initiated its conversion to Hazard Analysis and Critical Control Point
                   (HACCP) in July 1996 when it issued rules regarding HACCP and the
                   Pathogen Reduction system. These rules clarified the respective roles of
                   Government and industry in food safety: Industry is accountable for
                   producing safe food; Government is responsible for setting food safety
                   standards, maintaining inspection oversight, and maintaining an enforcement
                   program to ensure that establishments that do not meet standards are
                   appropriately sanctioned.

                   OIG initiated a series of audits of FSIS to determine whether FSIS’ meat and
                   poultry inspection program remained effective under the science-based
                   HACCP System. Our food safety initiative included reviews of three facets
                   of the new inspection system – HACCP, laboratory analyses, and foreign
                   imports – and a review of the compliance program that carried over from the
                   previous system. OIG issued four reports from the review. The reports were:
                   Audit No. 24001-3-At, “Implementation of the Hazard Analysis and Critical
                   Control Point System”; Audit No. 24601-1-Ch, “Laboratory Testing of Meat
                   and Poultry Products”; Audit No. 24099-3-Hy, “Imported Meat and Poultry
                   Inspection, Phase I”; and Audit No. 24601-4-At, “District Enforcement
                   Operations Compliance Activities”.

                   We reviewed FSIS’ activities across a broad spectrum of meat and poultry
                   inspection operations to assess the agency’s major inspection and control
                   components. Our reviews focused on:

                        •   Implementation of the HACCP program and of sanitation standard
                            operating procedures (SSOP), including efforts to test for pathogens
                            and reduce their presence;

                        •   FSIS’ quality assurance programs over its laboratory facilities and
                            operations, product sample integrity, and laboratory testing
                            operations;



USDA/OIG-A/24001-4-At                                                                    Page 1
                        •   FSIS’ process to determine whether foreign countries’ safety
                            inspection systems are equivalent to that for the United States; and

                        •   The effectiveness of FSIS' compliance review program in detecting
                            violations of meat and poultry inspection laws at non-federally
                            inspected firms.

                   The results we discovered during our June 2000 reviews demonstrated that
                   FSIS had taken positive steps to secure the safety of meat and poultry
                   products. However, more was needed in all four areas we reviewed. For the
                   science-based system to reach its full potential, FSIS needed to take
                   maximum advantage of the expanding role that science plays as a control
                   over the meat and poultry that enters the marketplace. Some of this control
                   was seen directly in the identification of pathogens; some was seen in the
                   integration of scientific techniques (e.g., operational procedures, reliance on
                   objective data) into the system being established.

                   Most significantly, we found that FSIS needed to command a more
                   aggressive presence in the inspection and verification process. FSIS had not
                   always established needed procedures or apprised itself of all areas where
                   inspections were critical; consequently, it had reduced its oversight short of
                   what was prudent and necessary for the protection of the consumer. More
                   specifically, we found that FSIS needed to strengthen its oversight in all four
                   areas we reviewed. For example:

                        •   FSIS allowed establishments to limit or reduce the number of critical
                            points identified in their HACCP plans and thereby limited
                            Government oversight.

                        •   FSIS’ database did not list all establishments subject to tests for
                            pathogens and residues (i.e., pesticides, etc.).

                        •   FSIS did not list all firms subject to compliance reviews and did not
                            target most reviews at major metropolitan and geographic areas or at
                            firms that could be regarded as high risk.

                   FSIS approved equivalency status to foreign countries without adequately
                   developing and implementing procedures for determining the equivalency of
                   foreign inspection systems or clearly documenting such determinations.
                   Unclear lines of authority, the absence of inspection system verification, and
                   minimal FSIS oversight did not always validate that foreign food safety
                   inspection systems were equivalent to U.S. standards.

                   We also concluded that FSIS should expand its own testing requirement to
                   increase the number of tests taken of E.coli, Listeria monocytogenes (LM),
                   and Salmonella, and to include other pathogens in those requirements.

USDA/OIG-A/24001-4-At                                                                      Page 2
                   In the area of compliance, we concluded that FSIS needed to act more
                   aggressively against repeat violators of the meat and poultry inspection laws.
                   FSIS did not have authority to impose civil penalties in cases that did not
                   warrant criminal prosecution. Letters of warning were often the only
                   enforcement tools applied.

                   Overall, we recommended that FSIS strengthen its procedures over the food
                   safety system. FSIS needed to institute stronger procedures to ensure that all
                   establishments were tested. In the case of imported meats and poultry, FSIS
                   needed to develop and implement formal procedures over its entire
                   equivalency process and enforce existing regulatory requirements. For
                   compliance verification, FSIS needed to refine its existing compliance plan to
                   establish the universe and scope of its reviews and target its resources, and it
                   needed to seek authority to impose monetary penalties and ensure that
                   violations of the meat and poultry inspection laws were met with these
                   penalties and other sanctions commensurate with each violation. We also
                   recommended that FSIS assert its authority over the HACCP system to
                   ensure that the intent of the program was met.

Objectives         The purpose of this current audit was to evaluate the corrective actions
                   planned and taken by FSIS to implement the 80 recommendations contained
                   in the June 2000 Food Safety Initiative, Meat and Poultry Products audit
                   reports.




USDA/OIG-A/24001-4-At                                                                       Page 3
Findings and Recommendations
Section 1: Status of Recommendations to Improve the HACCP System

                    Our June 2000 audit report of FSIS’ Implementation of the HACCP System
                    (Report No. 24001-3-At) contained 20 recommendations. Corrective actions
                    for 12 of these recommendations are generally complete, although
                    documentation for one of the 12 (Recommendation No. 16) has not yet been
                    approved by the Office of the Chief Financial Officer.

                    Corrective actions that have not yet had final approval from OCFO include
                    FSIS agreeing to evaluate the implementation of HACCP at the plants by
                    contracting for the development of and providing inspectors with a hazard
                    and controls guide. FSIS was also developing procedures for handling
                    repetitive sanitation deficiencies.

                    FSIS and OIG agreed to corrective actions on five more recommendations,
                    but these actions were still not completed as of the date of our followup
                    review. FSIS would not agree to three recommendations and has not offered
                    sufficient alternative corrective actions.


Corrective Actions Not Yet Agreed Upon

                    Pathogen Testing Included in the HACCP Plans

                    To further ensure that FSIS inspectors were given access to non-HACCP test
                    results that showed the presence of pathogens, we recommended in our 2000
                    report that FSIS require plants to include in their HACCP plans all pathogen
                    testing they perform.

                    FSIS officials initially stated that the HACCP regulation did not require
                    plants to include pathogen testing in their HACCP plans, and that FSIS
                    required inspectors to verify all corrective actions taken and documented by
                    the plant as well as the reassessment and modification of the HACCP plan
                    when adverse microbial test results occurred in plants. In a response (dated
                    December 7, 2001) to the audit report, FSIS stated that they believed this
                    recommendation was unwarranted. FSIS stated that establishments are
                    required to meet corrective actions for adverse test results if the HACCP plan
                    contains a critical control point (CCP) addressing LM, and if the HACCP
                    plan does not address Lysteria, the establishment must meet corrective
                    actions for an unforeseen hazard by reassessing their HACCP plan.

                    This action does not address how an establishment's official will inform FSIS
                    inspectors of adverse microbial tests. We found that FSIS performs limited
                    testing of establishments’ products and could take weeks or months to
USDA/OIG-A/24001-4-At                                                                      Page 4
                   uncover an adverse condition that establishment personnel may have already
                   known.     In addition, we found that there are no requirements for
                   establishments to provide test records to FSIS that are not in the HACCP
                   plan. (See exhibit A, Recommendation No. 12.)

                   Monitoring of Scheduled Tasks

                   In our 2000 report, we reported that not all the tasks scheduled for FSIS
                   inplant inspectors were being carried out but that it was unclear what was
                   causing the nonperformance.            Our review of reports from the
                   Performance-Based Inspection System (PBIS) did not show whether the
                   inspectors did not have time, whether an inappropriate task was generated
                   based on the wrong plant profile, or whether the plant’s operations rendered
                   the task inapplicable to the shift. We recommended FSIS district personnel
                   monitor the tasks, update the schedule when tasks become obsolete, and
                   establish codes to identify the reason tasks are not performed.

                   In a response (December 7, 2001) to the audit report, FSIS officials reiterated
                   that no new codes were needed; they would make the circuit supervisors
                   responsible when inspectors were not performing required procedures. FSIS
                   officials stated that they are taking steps to reinforce the usefulness of PBIS
                   data with circuit supervisors through the circuit meetings at the district
                   offices (DO) and through the National Supervisory Conferences.

                   We noted that during our 2000 audit, circuit supervisors were also
                   responsible for ensuring that some of the scheduled tasks were performed but
                   did not do so. FSIS officials stated that they would provide alternative
                   corrective actions to OIG to remedy this recommendation. (See exhibit A,
                   Recommendation No. 18.)

                   Timeframes for Responding to Noncompliance Records:

                   In our 2000 report, we reported that plants did not always respond in a timely
                   manner to noncompliance records (NR), which are issued by FSIS to identify
                   a violation by a plant. We found that plants did not always respond to NR’s
                   or take timely corrective action, so we recommended that FSIS establish
                   timeframes for a response.

                   In a response (October 22, 2001) to the audit report, FSIS stated that NR’s
                   place the responsibility on plant management for initiating corrective actions,
                   preventing recurrence of the noncompliance, and maintaining records. FSIS
                   stated that they see no need to establish timeframe requirements for plant
                   management to respond to NR’s and initiating corrective action. FSIS noted
                   that it is incumbent on plant management to take corrective actions to avoid a
                   repeat violation of regulations. FSIS did not provide alternative corrective
                   actions to show how the deficiency would be corrected in the future. The

USDA/OIG-A/24001-4-At                                                                      Page 5
                   Government Accountability Office (GAO) also identified the same weakness
                   in its audit report (GAO-02-902), dated August 2002. (See exhibit A,
                   Recommendation No. 20.)


Corrective Actions Agreed Upon But Not Implemented

                   Hazards and Controls Guide

                   During our 2000 review, we found that HACCP plans did not always identify
                   all CCP's, all likely hazards, and all critical limits (maximum temperatures,
                   maximum allowable defects, etc.) required of such plans. We consequently
                   recommended that FSIS implement a system of oversight that would ensure
                   that HACCP plans were complete and accurate. We also recommended that
                   the system of oversight include procedures for handling products returned to
                   the plants from buyers. HACCP plans did not include such procedures, and
                   inspectors were not always notified of the disposition of returned products.

                   FSIS officials proposed a number of items to resolve these recommendations
                   to establish procedures for inspectors that included additional oversight
                   responsibilities for food products, including the adoption of several types of
                   internal reviews.       FSIS officials also stated that in each cited
                   recommendation, they contracted for the development of a hazards and
                   controls guide to provide inspection personnel with guidance on the types of
                   hazards associated with different meat and poultry processes. This hazard
                   and controls guide was to be completed by September 2002. At the time of
                   our review, the hazard and controls guide had not been completed. (See
                   exhibit A, Recommendations Nos. 1, 2, 3, and 17.)

                   Progressive Enforcement Procedures for Repetitive Deficiencies

                   We reported in our 2000 report that FSIS did not have guidelines specifying
                   the number of times inspectors could issue the same NR to the same plant for
                   the same reason before requiring administrative or enforcement action. We
                   recommended that FSIS establish specific parameters for repetitive
                   deficiencies and determine when enforcement actions should be taken.

                   FSIS officials stated that they would develop procedures for handling
                   repetitive deficiencies by December 2000. At the time of our review, we
                   found that FSIS has not developed procedures for repetitive deficiencies.
                   FSIS officials stated that they were still determining how to address this
                   issue. GAO also cited this issue in its current report, (GAO-02-902) dated
                   August 2002. GAO stated, “FSIS is not consistently identifying repetitive
                   violations. This has occurred in part because FSIS has not established
                   specific, uniform, and clearly defined criteria for its inspectors to use in
                   determining when a violation is repetitive." Identifying repetitive violations

USDA/OIG-A/24001-4-At                                                                     Page 6
                   and maintaining accurate documentation on those decisions is critical in
                   deciding whether a HACCP plan is flawed and an enforcement action is
                   needed. (See exhibit A, Recommendation No. 19.)



Recommendation No. 1

                   Develop a plan to implement the agreed upon recommendations to correct the
                   deficiencies in the HAACP program. This plan should identify the officials
                   responsible for implementing each recommendation. It should also establish
                   reasonable timeframes for the project, as well as the individual tasks, and
                   include periodic progress reports addressing each part of the plan. FSIS
                   management should establish a mechanism that apprises them of the
                   progress. (See exhibit A, Recommendations Nos. 1, 2, 3, 17, and 19.)

                   Agency Response. In its August 11, 2004, response, FSIS stated,

                          The corrective actions for recommendation No. 17 and 19 in
                          the 2000 audit report were completed and the OCFO granted
                          final action on February 17, 2004, and November 26, 2003,
                          respectively. * * * FSIS will not pursue any further action
                          regarding these items.

                          For the three remaining recommendations, FSIS has
                          developed an action plan aimed at correcting deficiencies in
                          the HACCP implementation program and that addresses the
                          remaining OIG recommendations without final action. FSIS
                          has implemented an audit tracking system that includes bi-
                          monthly status reports to the FSIS management council. The
                          status report includes the recommendations where final action
                          is incomplete, identifies the agency official responsible for
                          addressing each recommendation, and the target date for
                          completion of the action.

                   OIG Position.        We accept the management decision for this
                   recommendation.




USDA/OIG-A/24001-4-At                                                                     Page 7
Section 2: Status of Recommendations to Improve FSIS’ Laboratory Testing Program

                    Our June 2000 audit report of FSIS’ Laboratory Testing of Meat and Poultry
                    Products (Report No. 24601-1-Ch) contained 17 recommendations.
                    Corrective actions for 15 of these recommendations have been accepted by
                    OCFO, and FSIS has implemented them. Of the corrective actions for the
                    remaining two recommendations, one was not implemented as agreed upon,
                    and one was implemented but ineffective.

                    The recommendations already implemented largely relate to quality control
                    issues. Specifically, FSIS has improved its onsite laboratory reviews and its
                    proficiency checks on laboratory operations. It has also developed quality
                    control procedures for ensuring that analytic test results are documented and
                    that equipment is calibrated properly and operating to standards. In a
                    separate issue, FSIS agreed to ensure that overnight deliveries of HACCP
                    samples arrive at the laboratories promptly when mailed on a Friday or the
                    day before a holiday.


Corrective Actions Agreed Upon But Not Implemented

                    Test for Nitrosamines

                    Our June 2000 audit found that FSIS did not test all bacon-producing plants
                    for nitrosamines, a carcinogen occurring in bacon. We recommended the
                    agency implement a more aggressive nitrosamines testing program.

                    The documentation FSIS submitted to OCFO was not sufficient to show that
                    all establishments producing bacon products have been made subject to the
                    required testing for nitrosamines. FSIS officials agreed to publish a
                    regulation to incorporate the nitrosamines testing requirement into HACCP,
                    but the regulation submitted to OCFO was still in the drafting stage. FSIS
                    was unable to provide timeframes when the regulation would be
                    implemented. (See exhibit B, Recommendation No. 6.)


Corrective Actions Implemented But Not Effective

                    Monitor Sampling Request Responses

                    Complementing a previous recommendation on nonresponses to laboratory
                    requests for monitoring samples, our June 2000 report also recommended that
                    managers provide greater oversight of sampling requests and followup at the
                    plants to determine the reason the FSIS plant inspector failed to respond to
                    the request.

USDA/OIG-A/24001-4-At                                                                     Page 8
                   Although the agency had implemented a monthly nonresponder report for the
                   Salmonella testing program, it did not issue any supplementary procedures on
                   how or when an FSIS inspector should respond to the new nonresponder
                   report. The nonresponder report was developed to notify DO's on a monthly
                   basis of instances where requested Salmonella samples were not provided
                   within 30 days. When we interviewed a district official, we found that the
                   district's followup procedures consisted of nothing more than forwarding the
                   nonresponder report to the circuit supervisors. Lacking guidance, the circuit
                   supervisors often did not determine why samples were not sent.
                   Consequently, in February 2002, FSIS reported that 140 plants had ongoing
                   Salmonella sample sets in excess of 18 months.

                   The equivalent quarterly reports covering the E.coli and RTE testing
                   programs were not sent out until October 2002. As with the Salmonella
                   nonresponder report, FSIS Headquarters did not provide DO's with guidance
                   or instructions for their use. As a result, for all three reports, followup action
                   was left to the initiative of individual district or circuit officials. The FSIS
                   E.coli Random Sample Request Tracking Report showed 665 nonresponding
                   establishments during the period March through September 2002; of these,
                   259 establishments appeared on the report for 7 consecutive months. Thus,
                   the needed corrective actions for this recommendation had been only partially
                   completed. However, on June 17, 2002, FSIS submitted documentation to
                   OCFO on its progress, and requested final action. OCFO accepted final
                   action on October 28, 2002. FSIS actions did not meet the intent of the
                   recommendation, which was to monitor the responses to sampling requests
                   on a monthly basis, identify instances where inspectors did not respond, and
                   followup with the plant inspectors to determine the reason for their
                   nonresponses. (See exhibit B, Recommendation No. 3.)

                   At the exit conference, FSIS officials stated that subsequent to our audit
                   work, the number of non-responders had declined considerably. Figures
                   provided to us by FSIS showed that the number of Salmonella sample sets
                   open for periods of greater than 18 months had declined to 46 as of
                   October 15, 2003. The figures provided by the agency did not include
                   information for the E.coli and RTE testing program.



Recommendation No. 2

                   Develop a plan to implement the recommendations to correct deficiencies in
                   the laboratory-testing program. This plan should identify the officials
                   responsible for implementing each recommendation. It should also establish
                   reasonable timeframes for the project as well as the individual tasks, and
                   include periodic progress reports addressing each part of the plan. FSIS

USDA/OIG-A/24001-4-At                                                                        Page 9
                   management should establish a mechanism that apprises them of the
                   progress. (See exhibit B, Recommendation No. 6.)

                   Agency Response. In its August 11, 2004, response, FSIS stated,

                          *      *       *       *      *       *      *      *       *

                          For the remaining recommendation, FSIS has implemented an
                          audit tracking system that includes bi-monthly status reports
                          to the FSIS management council. The status report includes
                          the recommendation where final action is incomplete,
                          identifies the agency official responsible for addressing this
                          recommendation, and the target date for completion of the
                          action * * *.

                   OIG Position.         We accept the management decision for this
                   recommendation.



Recommendation No. 3

                   Establish supplementary procedures for the nonresponder reports that
                   includes controls to ensure that monitoring of sampling requests is done on a
                   monthly basis, and followup is performed to determine reasons why plant
                   inspectors did not respond. (See exhibit B, Recommendation No. 3)

                   Agency Response. In its August 11, 2004, response, FSIS stated,

                          As referenced in Exhibit B of the report, on August 28, 2002,
                          the OCFO granted FSIS final action for recommendation
                          No. 3. The OIG indicated that the corrective action was
                          partially completed since written guidelines on the use of
                          nonresponder reports have not been provided to the District
                          Offices.

                          FSIS will issue additional guidance on the use and
                          interpretation of the laboratory nonresponders report by
                          October 2004.

                          *      *       *       *      *       *      *      *       *

                   OIG Position.         We accept the management decision for this
                   recommendation.



USDA/OIG-A/24001-4-At                                                                     Page 10
Section 3: Status of Recommendations to Improve the Imported Meat and Poultry
Inspection Program

                              Our June 2000 audit report of FSIS’ Imported Meat and Poultry Inspection
                              Process—Phase I (Report No. 24099-3-Hy) contained 35 recommendations.
                              For 11 of these, FSIS failed to implement the corrective actions it had agreed
                              to take.      FSIS satisfactorily implemented corrective actions for
                              23 recommendations. One recommendation is still in contention.

                              Actions properly implemented include those largely concerned with FSIS’
                              procedures for determining whether a foreign country’s food safety system is
                              equivalent to the U.S. system—a requirement of the imported meat and
                              poultry program. FSIS has instituted guidelines to ensure consistency in
                              equivalency determinations, introduced subject-matter experts in the process,
                              improved documentation of the determinations, and established management
                              oversight of the determinations. FSIS has also strengthened its review of
                              trading partners and of their import inspection methods.

                              OCFO has yet to grant approval of corrective actions for 4 of the
                              11 recommendations that FSIS did not implement. The corrective actions
                              relate to FSIS’ improvements in the oversight and control of the import
                              inspection program and the integrity of data entered into the information
                              system. (See exhibit C, Recommendations Nos. 1, 2, 14, and 18.) We
                              reported these exceptions in February 20032 and FSIS agreed to develop
                              strategies by March 2004 to address weaknesses identified in our
                              June 2000 audit report.


Corrective Actions Not Yet Agreed Upon

                              Material Control Weaknesses

                              Our June 2000 report recommended that FSIS recognize the conditions
                              disclosed during our audit as material management control weaknesses and
                              report them as such in the agency’s annual management control report
                              required by the Federal Manager’s Financial Integrity Act.

                              FSIS has not yet agreed to do this. As previously reported, basic control
                              activities, such as documented policies, procedures, supervisory reviews and
                              approvals, delegated responsibilities, and clear lines of authority were lacking
                              in FSIS’ operations. FSIS did not conduct the indepth assessment of its
                              controls as it agreed to do; therefore, the agency should report the material


2
    Audit Report No. 24099-04-Hy, “Food Safety and Inspection Service Imported Meat and Poultry Reinspection Process
    Phase II,” issued February 2003.
USDA/OIG-A/24001-4-At                                                                                      Page 11
                   weaknesses in the import         inspection process.        (See   exhibit   C,
                   Recommendation No. 6.)


Corrective Actions Agreed Upon But Not Implemented

                   Indepth Assessment:

                   During our June 2000 audit, we found that a too rapid reorganization of FSIS
                   in 1997 left the agency’s import inspection operations without an adequate
                   system of internal controls. We recommended an indepth assessment of the
                   division’s operations as a basis for establishing such a system.

                   FSIS documented an assessment of the equivalence portion of import
                   inspection operations that included the management controls for major
                   functions (e.g., equivalence determinations and onsite audits). However, no
                   similar assessment was performed for the reinspection portion of the
                   operations. This assessment would have provided the agency with the
                   opportunity to ensure the effectiveness of its operations and to address other
                   material weaknesses. (See exhibit C, Recommendation No. 1.)

                   As reported in our February 2003 audit report, FSIS did not implement this
                   recommendation but agreed to develop strategies to address it by
                   March 2004. FSIS submitted documentation to OCFO requesting final action
                   on this recommendation on March 20, 2002. As of May 20, 2003, OCFO had
                   not accepted final action.

                   Management Oversight Functions

                   The June 2000 report recommended that FSIS require increased management
                   oversight of import inspection operations and procedures and management
                   approval of any changes to those operations and procedures.

                   FSIS did not prepare a summary of its management oversight functions and
                   procedures even though the agency agreed to do so. FSIS officials claimed
                   that reinspection activities were controlled through a multi-tiered supervisory
                   and management oversight structure. Further, they stated that they relied on
                   DO's to ensure that reinspection activities were well managed and properly
                   functioning. Through discussions with district officials, we learned that DO
                   oversight was minimal, which we confirmed at the import inspector level.
                   Circuit supervisors were not always fully engaged in their oversight
                   responsibilities for import reinspection operations.         (See exhibit C,
                   Recommendation No. 2.)




USDA/OIG-A/24001-4-At                                                                    Page 12
                   As reported in our February 2003 audit report, FSIS did not implement this
                   recommendation but agreed to develop strategies to address it by
                   March 2004. FSIS submitted documentation to OCFO requesting final action
                   on this recommendation on March 20, 2002. As of May 20, 2003, OCFO had
                   not accepted final action.

                   Management Control Training

                   In 2000, we recommended that FSIS provide management control training to
                   agency managers.

                   FSIS did not provide management control training to all its managers
                   responsible for the reinspection process, as it agreed to do. This training
                   would have given agency managers knowledge for enhancing their oversight
                   capabilities. (See exhibit C, Recommendation No. 3.)

                   OCFO accepted final action on this recommendation on October 28, 2002.
                   As reported in our February 2003 audit report, FSIS did not implement this
                   recommendation. In response to a recommendation in that report, FSIS
                   agreed to develop strategies by March 2004 to address weaknesses identified
                   in our June 2000 audit report.

                   Independent Assessments

                   Our 2000 report recommended that the FSIS internal control staff conduct
                   periodic independent assessments of FSIS programs and operations,
                   emphasizing those processes that changed during the 1997 reorganization of
                   FSIS.

                   FSIS did not conduct these assessments. In response to our prior
                   recommendation, FSIS’ Executive Steering Committee for Management
                   Controls (Committee) was charged with identifying and prioritizing selected
                   processes for independent assessment. Members of this Committee included
                   FSIS management officials (e.g., Associate Administrator and Associate
                   Deputy Administrators). By September 1, 2000, the Committee was to
                   provide guidance on the assessments performed. This guidance was not
                   prepared until September 2001, a year later. The initial focus was to assist
                   agency managers who requested assessments and to review programs that
                   changed during the 1997 reorganization. The guidance also requested
                   quarterly status reports of progress. We found that no reviews had been
                   scheduled or performed and that no status reports had been provided to the
                   Committee. (See exhibit C, Recommendation No. 5.)

                   OCFO accepted final action on this recommendation on April 3, 2002. As
                   reported in our February 2003 audit report, FSIS did not implement this


USDA/OIG-A/24001-4-At                                                                  Page 13
                   recommendation. In response to a recommendation in that report, FSIS
                   agreed to develop strategies by March 2004 to address weaknesses identified
                   in our June 2000 audit report.

                   Entry of Test Results into the Information System

                   Reinspection of imported product is directed by FSIS’ information system.
                   The system may, for example, generate residue and microbiological
                   laboratory test assignments based on the compliance histories of the plants,
                   countries, and products being presented for reinspection. Our 2000 audit
                   found that FSIS had no clear process for entering the results of laboratory
                   tests into the system. Test results that show the presence of pathogens need
                   to be available to inspectors so they may target their inspections accordingly.
                   We recommended that FSIS establish procedures for entering data into the
                   system and that it institute management controls to ensure the data was
                   entered accurately.

                   In response to our recommendations, FSIS agreed to institute procedures to
                   streamline the entry of residue and microbial test results into the information
                   system. FSIS established these procedures, but did not document them.
                   Further, no supervisory reviews were conducted to validate the entries. (See
                   exhibit C, Recommendations Nos. 13 and 14.)

                   On October 28, 2002, OCFO accepted final action on Recommendation
                   No. 13. As reported in our February 2003 audit report, FSIS did not
                   implement this recommendation. In response to a recommendation in that
                   report, FSIS agreed to develop strategies by March 2004 to address
                   weaknesses identified in our June 2000 audit report.

                   FSIS and OIG reached management decision on Recommendation No. 14 on
                   October 29, 2002. FSIS responded that laboratory results were transferred
                   electronically to the new import information system. FSIS had expected to
                   document the procedures for this process by January 2003. As of
                   June 2003, FSIS had not requested final action from OCFO.

                   Integrity of Eligibility Data in the Information System

                   Eight recommendations in our June 2000 report concerned the annual
                   certification of foreign establishments listed to participate in the import
                   reinspection program, and the delistment (removal from the list) of those
                   establishments no longer eligible to import under the program. In response to
                   these recommendations, FSIS agreed to (1) ensure that foreign establishments
                   met annual certification requirements and (2) establish a system for tracking
                   delistments. Neither of these corrective actions occurred. Our June 2000
                   audit report included eight recommendations to address these weaknesses.
                   FSIS took adequate action to address four of them; however, the agency’s

USDA/OIG-A/24001-4-At                                                                    Page 14
                   actions were insufficient for the remaining four.          (See exhibit C,
                   Recommendations Nos. 17, 18, 19, and 21.)

                   OCFO accepted final action on Recommendations Nos. 17, 19, and 21 on
                   October 28, 2002. As reported in our February 2003 audit report, FSIS did
                   not implement these recommendations. In response to a recommendation in
                   that report, FSIS agreed to develop strategies by March 2004 to address
                   weaknesses identified in our June 2000 audit report.

                   As reported in our February 2003 audit report, FSIS did not implement
                   Recommendation No. 18 but agreed to develop strategies to address it by
                   March 2004. FSIS submitted documentation to OCFO requesting final action
                   for this recommendation on March 20, 2002. As of May 20, 2003, OCFO
                   had not accepted final action for this recommendation.

                   Process Control Report

                   In 2000, we recommended that FSIS modify its automated system to produce
                   daily process control reports to enable verification of input.

                   FSIS developed a new information system to increase the efficiency and
                   effectiveness of the system while decreasing the cost of ownership. The prior
                   system had been brought online in 1978. However, FSIS officials did not
                   include a daily process control report in the new information system, even
                   though the agency agreed to do so. This control report would enable FSIS
                   first-line supervisory personnel to timely verify the accuracy of information
                   entered into the system. The examples of management control reports
                   provided by FSIS personnel in April 2002 represented different ways of
                   monitoring the system but did not enable them to verify the accuracy of
                   information entered into the system. (See exhibit C, Recommendation No.
                   22.)

                   OCFO accepted final action on this recommendation on October 28, 2002.
                   As reported in our February 2003 audit report, FSIS did not implement this
                   recommendation. In response to a recommendation in that report, FSIS
                   agreed to develop strategies by March 2004 to address weaknesses identified
                   in our June 2000 audit report.



                   We included recommendations to correct the noted deficiencies in our report
                   on "Imported Meat and Poultry Reinspection Process, Phase II" (Audit No.
                   24009-4-Hy, issued February 2003). Therefore, no further recommendations
                   are made in this report.



USDA/OIG-A/24001-4-At                                                                   Page 15
Section 4: Status of Recommendations to Improve FSIS’ Compliance Operations

                   Our June 2000 audit report of FSIS’ District Enforcement Operations’
                   Compliance Activities (Report No. 24601-4-At) contained eight
                   recommendations. FSIS has satisfactorily implemented corrective actions on
                   all eight recommendations.

                   In responding to our 2000 report, FSIS identified high-risk firms and created
                   timeframes for monitoring and tracking violations of the meat and poultry
                   inspection laws, and agreed to continue seeking authority to assess civil
                   monetary penalties against the violators. FSIS established procedures to
                   monitor the receipt and followup of all consumer complaints and reviewed
                   16 consumer complaints it had previously overlooked. FSIS also enhanced
                   its plan to target resources to large metropolitan and geographic areas and
                   high-risk firms and provide training to ensure that all managers are able to
                   properly oversee violation case review and preparation.




USDA/OIG-A/24001-4-At                                                                   Page 16
Scope and Methodology
                   The audit fieldwork was conducted at the FSIS National Office in
                   Washington, D.C.; OCFO in Washington, D.C.; the FSIS Technical Service
                   Center (TSC) in Omaha, Nebraska; the Chicago DO in Lombard, Illinois; the
                   district sub-area office in Jamaica, New York; and two judgmentally selected
                   plants located in Alabama and South Carolina. The fieldwork was performed
                   August 2002 through June 2003.

                   To assess the corrective actions taken to date by FSIS we:

                        •   Reviewed the corrective action FSIS had             taken   on   each
                            recommendation made in prior cited audit reports;

                        •   Conducted interviews with responsible FSIS and OCFO officials;

                        •   Reviewed FSIS' regulations, instructions, procedures, studies,
                            published reports, media releases, and other Government reviews; and

                        •   Conducted site visits to the FSIS National Office, FSIS’ TSC, DO's,
                            and plants located in Alabama and South Carolina. These plants were
                            judgmentally selected based on recent indepth verification reviews
                            performed by FSIS and on travel costs.

                   The audit was conducted in accordance with Government Auditing Standards
                   (1994 Revision) issued by the Comptroller General of the United States.




USDA/OIG-A/24001-4-At                                                                    Page 17
          Exhibit A -     Summary of the Status of Recommendations – Implementation of
          HACCP System Audit
                                                                                                                                Exhibit A - Page 1 of 5
Recommendation




                                                                                                                           Recommendation
                                                                                                                            Implemented
                                                                                                Management
                                                                                                 Decision
    Number




                                                                                                              Action
                                                                                                                                            FSIS Requested
                      Recommendation                      Agency Response                                    Needed for
                                                                                                                                             Final Action
                                                                                                             Mgmt. Dec.


                 Implement a system of
                 oversight, such as DO or
                 independent reviews, to ensure
                 HACCP plans contain minimum
                 required CCP based on the
                 HACCP models. Issue
                 instructions that provide clear   The four individual reviews will                                                         FSIS requested final
                 guidance on requirements for      ensure necessary CCP's are                                                               action on
                 establishing CCP's and            identified. Created the Food Safety                                                      February 5, 2003.
                 inspector's authority to require  Systems Correlation (FSSC) Team.                                                         OCFO requested
                 changes to documented CCP's.      Established Consumer Safety Officer                                                      additional
                 Revise checklist used to          (CSO). Will continue to hold work                                                        information on
   1             evaluate HACCP plans.             unit meetings in each of district.     Yes                None         No                March 4, 2003.
                                                   FSIS implemented individual reviews                                                      FSIS requested final
                                                   to improve oversight, to ensure                                                          action on
                 Implement a system of             HACCP plans contain CCP critical                                                         February 5, 2003.
                 oversight to ensure HACCP         limits and corrective actions for                                                        OCFO requested
                 plans contain adequate critical   deviations are appropriate. FSIS                                                         additional
                 limits and corrective actions are contracted for the development of a                                                      information on
   2             proper.                           hazard and controls guide.             Yes                None         No                March 4, 2003.
                                                   FSIS implemented several individual                                                      FSIS requested final
                                                   reviews to improve oversight, to                                                         action on
                 Implement a system of             ensure that hazard analysis identifies                                                   February 5, 2003.
                 oversight to ensure that the      food safety hazards reasonably likely                                                    OCFO requested
                 hazard analysis includes all food to occur at the establishment. FSIS                                                      additional
                 safety hazards that are           contracted for the development of a                                                      information on
   3             reasonably likely to occur.       hazard and controls guide.             Yes                None         No                March 4, 2003.
                 Implement a system of
                 oversight to include                                                                                                       FSIS requested final
                 management reviews and/or                                                                                                  action on
                 independent reviews requiring     FSIS implemented several individual                                                      February 5, 2003.
                 establishments to correct         reviews to improve oversight to                                                          OCFO requested
                 flowcharts to reflect the         ensure flowcharts incorporate the                                                        additional
                 establishments' actual            establishments' processes. Created                                                       information on
   4             operations.                       FSSC Team and CSO positions.           Yes                None         Yes               March 4, 2003.
                 Develop and implement             In January 1999, FSIS issued
                 procedures that provide FSIS      performance standards for the
                 employees with the authority to production of certain meat and
                 require HACCP plans to include poultry products. FSIS expects to                                                           OCFO accepted
                 pathogen testing of product       issue a proposed regulation by                                                           final action for this
                 environment, contact surfaces,    June 2001, addressing RTE meat and                                                       recommendation on
   5             and final products.               poultry.                               Yes                None         Yes               January 28, 2003.




          USDA/OIG-A/24001-4-At                                                                                                                    Page 18
                                                                                                                             Exhibit A - Page 2 of 5
Recommendation




                                                                                                                              Recommendation
                                                                                                                               Implemented
                                                                                         Management
                                                                                          Decision
    Number




                                                                                                      Action Needed                            FSIS Requested
                       Recommendation                      Agency Response
                                                                                                      for Mgmt. Dec.                            Final Action



                                                   On March 31, 2004, FSIS issued
                                                   FSIS Directive 5000.2, Review of
                                                   Establishment Data by Inspection
                                                   Program Personnel. This directive
                                                   reaffirms FSIS’ authority for
                                                   accessing all internal and external
                                                   plant pathogen and microbial testing
                                                   results. The directive specifies that
                                                   inspection personnel are to be aware
                                                   of all monitoring and of all food
                                                   safety testing conducted by the
                                                   establishment and should ask
                                                   establishment management to make
                                                   available for review the data that is
                                                   generated by such monitoring or
                                                   testing so that it is available when
                                                   inspection program personnel are
                                                   verifying HACCP records. Also, on
                                                   at least a weekly basis, inspection
                                                   personnel must review the results of
                                                   any testing and of any monitoring
                                                   activities that the establishment
                                                   performed that may have an impact
                                                   on the establishment’s hazard
                                                   analysis. Since the results of any
                                                   testing and of any monitoring
                                                   activities performed by the
                                                   establishment may have an impact on
                 Provide clear authority in the    the establishment’s hazard analysis,
                 Grant of Inspection contact for   records of these activities are subject                                                     FSIS has not
                 FSIS oversight of all plant       to FSIS review and are to be made                                                           requested final
    6            pathogen testing.                 available to FSIS personnel.            Yes        None             Yes                     action from OCFO.
                                                   FSIS continues to work closely with
                                                   ARS in a variety of food and safety
                                                   research and development areas.
                                                   Immunomagnetic bead method
                                                   implemented in all three FSIS
                 Develop testing programs in       laboratories. Projects involving LM,
                 coordination with the             handling, transportation, and chilling                                                      OCFO accepted
                 Agricultural Research Service     of meat and poultry. Developing                                                             final action for this
                 (ARS) for other pathogens that    proposals for new research projects to                                                      recommendation on
    7            impact food safety.               develop detection methods.              Yes        None             Yes                     April 7, 2003.




           USDA/OIG-A/24001-4-At                                                                                                                 Page 19
                                                                                                                                   Exhibit A - Page 3 of 5
Recommendation




                                                                                                                                   Recommendation
                                                                                                                                    Implemented
                                                                                                        Management
                                                                                                         Decision
    Number




                                                                                                                      Action
                                                                                                                                                     FSIS Requested
                      Recommendation                               Agency Response                                   Needed for
                                                                                                                                                      Final Action
                                                                                                                     Mgmt. Dec.


                 Improve controls by issuing
                 instructions for securing FSIS
                 test samples until the samples
                 are in the possession of the         FSIS laboratories are revising Directive 7355.1
                 shipping agent and review            to reflect a more fail-safe procedure. The                                                    OCFO accepted final
                 security to ensure that              revised directive will provide a unified system                                               action for this
                 instructions are being               to ensure the integrity of samples submitted to                                               recommendation on
     8           followed.                            laboratories for analysis.                         Yes         None         Yes               April 7, 2003.
                 Implement management
                 controls that include (1) timely
                 providing field office
                 inspectors microbe testing
                 results, (2) instructions to field
                 offices to continue Salmonella
                 testing each production day,
                 (3) procedures to notify the
                 DO if a field office stops
                 submitting Salmonella
                 samples prior to the
                 completion of a testing series,      Implement Pathogen Reduction Enforcement
                 and (4) procedures to ensure         Program (PREP) RTE modules and the E.coli
                 seasonal and products with           module. The Management Information Report                                                     OCFO accepted final
                 irregular production schedules       forwarded to the DO for review will reflect that                                              action for this
                 are tested in direct testing         some sampling for an establishment has not                                                    recommendation on
     9           program.                             been received for 30 days.                       Yes           None         Yes               April 3, 2003.
                 Implement procedures that
                 require inspectors to review    FSIS implemented several individual reviews
                 and approve plants' sampling    to improve oversight of the establishments'                                                        OCFO accepted final
                 protocols for generic E.coli    sampling protocols for genetic E.coli. The                                                         action for this
                 testing to ensure they are      concerns identified in this recommendation are                                                     recommendation on
     10          complete and being following.   addressed in the four individual reviews.         Yes               None         Yes               February 17, 2004.
                                                 On March 31, 2004, FSIS issued FSIS
                                                 Directive 5000.2, Review of Establishment
                 Expand the language in the      Data by Inspection Program Personnel. The
                 Grant of Inspection agreement directive specifies that inspection personnel are
                 to include the requirements     to be aware of all monitoring and of all food
                 and responsibilities required   safety testing conducted by the establishment
                 of the plant under the HACCP and should ask establishment management to
                 program, FSIS authority,        make available for review the data that is
                 oversight, and access to        generated by such monitoring or testing so that
                 information for plants'         it is available when inspection program
                 operation. Use Grant of         personnel are verifying HACCP records. Since
                 Inspection as a contract, or    the results of any testing and of any monitoring
                 enforceable agreement           activities performed by the establishment may
                 between the Government and have an impact on the establishment’s hazard
                 the establishment signed by all analysis, records of these activities are subject                                                  FSIS has not
                 parties and subject to review   to FSIS review and are to be made available to                                                     requested final action
     11          and renewal.                    FSIS personnel.                                   Yes               None         Yes               from OCFO.



           USDA/OIG-A/24001-4-At                                                                                                                        Page 20
Recommendation                                                                                                                  Exhibit A - Page 4 of 5




                                                                                                                   Recommendation
                                                                                                                    Implemented
                                                                             Management
                                                                              Decision
    Number



                                                                                           Action Needed                             FSIS Requested
                    Recommendation                Agency Response
                                                                                           for Mgmt. Dec.                             Final Action



                                               The pathogen reduction
                                               (PR)/HACCP regulation does
                                               not require plants to include
                                               pathogen testing in their
                                               HACCP plans. FSIS will
                 Require plants to include all verify corrective actions
                 pathogen testing performed when findings occur and
                 by the plants in their        corrective actions taken and               FSIS needs a
                 HACCP plans, to retain test documented by the plant as                   description of how
                 results, and to notify the    well as reassessment and                   recommendation will
                 Inspector-in-Charge (IIC) of modification of the HACCP                   be implemented and
                 adverse microbial test        plan when adverse microbial                timeframe for
     12          results.                      test results occur.           No           implementation.     No                    None
                 Instruct IIC's to assess the
                 adequacy of the plants'       FSIS agrees to reinforce the
                 corrective actions to         requirement to access the                                                            OCFO accepted final
                 eliminate harmful pathogens adequacy of plants'                                                                    action for this
                 and to monitor those          corrective actions and to                                                            recommendation on
     13          actions.                      monitor these actions.        Yes          None               Yes                    February 28, 2003.
                 Develop and implement an
                 internal review system to
                 provide assurances that
                 plant level HACCP, SSOP, As mentioned in response to                                                               OCFO accepted final
                 and microbial testing         Recommendation No.1, FSIS                                                            action for this
                 programs are operating as     is implementing the in depth                                                         recommendation on
     14          intended.                     verification review.          Yes          None               Yes                    April 7, 2003.
                                               FSIS agrees to reinforce
                                               inspector's authorities in
                                               relation to the Sanitation
                                               Performance Standard
                                               regulation and SSOP's
                 Ensure that IIC's routinely   through better
                 evaluate the effectiveness of communication and training,                                                          OCFO accepted final
                 SSOP's and require changes National Supervisory                                                                    action for this
                 and modifications to plants' Conferences, and work unit                                                            recommendation on
     15          SSOP plans when needed.       meetings.                     Yes          None               Yes                    April 9, 2003.




 USDA/OIG-A/24001-4-At                                                                                                                       Page 21
                                                                                                                               Exhibit A - Page 5 of 5
Recommendation




                                                                                                                    Recommendation
                                                                                                                     Implemented
                                                                                 Management
                                                                                  Decision
    Number




                                                                                               Action Needed                           FSIS Requested
                        Recommendation                   Agency Response
                                                                                               for Mgmt. Dec.                           Final Action



                                                       FSIS believes its current
                                                       regulations require the
                                                       establishment to identify
                                                       any hazard related to the                                                     FSIS requested final
                                                       returned product process                                                      action on
                 Establish procedures that require     and include such hazards in                                                   February 5, 2003.
                 that the returned product process be the hazard analysis. FSIS                                                      OCFO requested
                 included in the hazard analysis and   implemented several                                                           additional information
      16         HACCP plan.                           reviews.                    Yes        None                Yes                on March 4, 2003.
                                                       FSIS is implementing
                                                       several review processes to
                                                       ensure establishments'
                                                       HACCP plan(s) address
                                                       regulatory requirements.                                                      FSIS requested final
                 Establish procedures for inspectors   FSIS implemented four                                                         action on
                 that include their oversight          individual reviews. Also,                                                     February 5, 2003.
                 responsibilities from the point of    contracted for the                                                            OCFO requested
                 product return to product             development of hazards                                                        additional information
      17         distribution.                         and control guide.          Yes        None                No                 on March 4, 2003.
                 Require FSIS DO personnel monitor FSIS relies on the
                 and update scheduled tasks on a       Inspection Systems
                 continuous basis and to establish     Procedure Guide and the                FSIS need details/
                 additional codes or require           PBIS to schedule and                   timeframes on how
                 inspectors to document why tasks      record the performance of              recommendation will
      18         are not performed.                    inspection procedures.      No         be implemented.     No                 None
                 Develop and implement progressive
                 enforcement procedures that
                 establish specific parameters for                                                                                   FSIS requested final
                 repetitive deficiencies and provide a                                                                               action on April 3, 2003.
                 basis for determining when            FSIS will develop                                                             OCFO requested
                 corrective actions are inadequate     procedures for repetitive                                                     additional
                 and when enforcement actions          deficiencies by                                                               documentation on
      19         should be promptly initiated.         December 2000.              Yes        None                No                 May 12, 2003.
                                                       FSIS does not find it
                                                       advisable to establish
                                                       specific timeframes. FSIS
                                                       believes its current
                                                       regulations hold plants
                                                       accountable for initiating             FSIS needs a process
                                                       and implementing                       in place to determine
                                                       corrective actions. FSIS               whether plants open
                                                       does not agree to change               NR's are due to the
                                                       the procedures for issuing             length of time it
                                                       NR's, but it does agree to             takes to correct
                                                       reinforce inspection                   deficiencies or due to
                                                       personnel responsibilities             the need of a
                 Establish timeframe requirements      for monitoring and                     description of how
                 for responding to NR's and initiating evaluating corrective                  the recommendation
      20         planned corrective actions.           actions.                    No         will be implemented. No                None


       USDA/OIG-A/24001-4-At                                                                                                                  Page 22
         Exhibit B - Summary of the Status of Recommendations – Laboratory Testing
         of Meat and Poultry Products Audit
                                                                                                                       Exhibit B - Page 1 of 10
Recommendation




                                                                   Management
                                                                                 Action




                                                                    Decision
    Number




                                                                                Needed for         Recommendation              FSIS Requested
                  Recommendation           Agency Response
                                                                                 Mgmt.              Implemented                 Final Action
                                                                                   Dec


                                         FSIS officials responded
                                         that they would develop an
                                         approach to followup with
                                         inspectors. For Salmonella
                                         testing, FSIS developed the
                                         PREP that would, among
                                         its other features, allow
                                         FSIS to ensure that
                                         inspectors provide current
                                         and updated profile
                                         information for each FSIS-
                 Develop a management inspected establishment.
                 system to track each    For RTE products (Listeria
                 inspector’s compliance testing) and ground beef
                 with requirements for   products (E.coli testing)                           Yes
                 semiannual updates to   the PBIS system would be
                 the sampling frames.    enhanced as necessary to                            Establishment inspectors are
                 Followup with           provide the needed profile                          required to update the profiles
                 establishment           data. Corrective actions                            electronically. The PREP
                 inspectors who do not   for Salmonella and residue                          system has been implemented,
                 respond to ensure that  testing would be in place                           to allow FSIS Headquarters or
                 sampling information is by September 2000, and                              DO officials to determine         OCFO accepted
                 up-to-date for all      for E.coli and Listeria                             whether the profile data on       final action on
1                establishments.         testing by December 2000. Yes          None         each establishment is current.    May 12, 2003.




         USDA/OIG-A/24001-4-At                                                                                                       Page 23
Recommendation                                                                                                         Exhibit B - Page 2 of 10


                                                                                         Action




                                                                            Management
                                                                             Decision
    Number


                                                                                         Needed
                                                                                                        Recommendation           FSIS Requested
                    Recommendation                Agency Response                          for
                                                                                                         Implemented              Final Action
                                                                                         Mgmt.
                                                                                          Dec.

                 Develop a database that                                                          Yes
                 identifies and segments all
                 establishments producing    FSIS stated that it would                            FSIS made changes to their
                 products designated for     enhance the PBIS establishment                       PREP system in order to
                 sampling under the various  profile by December 2000, to                         capture changes in plant
                 sampling projects. Use this include all product information                      profile information. The
                 information to maintain a   needed for sampling programs                         data from the PBIS system
                 current listing within the  and require inspection personnel                     is downloaded to the PREP      OCFO accepted
                 sampling frames for the     to keep that information up to                       system as a means to update    final action on
2                sampling projects.          date.                            Yes        None     the plant profile.             April 17, 2003.
                                             FSIS officials stated that by
                                             September 2000 their PREP
                                             system for Salmonella testing
                 Institute procedures to     would be producing a quarterly                                                      FSIS requested final
                 monitor the responses to    report identifying                                                                  action for this
                 sampling requests on a      nonresponding establishment                          No                             recommendation on
                 monthly basis, and identify inspectors. In addition, the                                                        June 17, 2002.
                 instances where inspectors automated e-mail system                               FSIS now distributes the
                 do not respond. Where       developed earlier to notify                          nonresponder reports for all   As of
                 inspectors do not respond   inspectors and circuit                               three major testing programs   October 28, 2002,
                 to sampling requests,       supervisors of problems with                         (Salmonella, E.coli, and       OCFO has accepted
                 require DO's to followup    discarded samples would be                           RTE) but has not provided      this
                 with the establishment      enhanced to provide feedback                         DO's with written guidelines   recommendation for
                 inspectors to determine the on nonresponders under all                           for their use. Therefore,      closure.
                 reason for their failure to three major testing programs,                        they have only partially
                 provide the required        Salmonella, RTE, and E.coli.                         completed the necessary        OIG disagreed that
                 responses. In addition,     These actions would be                               corrective actions.            final action has
                 perform immediate           completed by September 2000.                                                        been achieved, and
                 followup on the             Later, quarterly reports of                          FSIS followup on the           has verbally
                 197 establishments that     nonresponders would be                               197 cited establishments       informed the
                 failed to respond to 3 or   developed for the E.coli and                         was completed by               responsible FSIS
3                more requests.              RTE testing programs as well.    Yes        None     October 6, 2000.               official of this.




      USDA/OIG-A/24001-4-At                                                                                                          Page 24
                                                                                                                          Exhibit B - Page 3 of 10
Recommendation




                                                                                 Management
                                                                                                Action




                                                                                  Decision
    Number


                                                                                                                                         FSIS
                                                                                                Needed       Recommendation
                   Recommendation                  Agency Response                                                                     Requested
                                                                                              for Mgmt.       Implemented
                                                                                                                                      Final Action
                                                                                                 Dec.


                                            FSIS agreed to modify the PBIS
                                            system to track the status and
                                            disposition of sample requests.
                                            This was to be done through
                 Implement a system,        the creation of a “sample log”                                Yes
                 which allows FSIS to       in PBIS. As part of the
                 track the status of sample implementation process,                                       On April 17, 2003, FSIS
                 requests, including their FSIS would modify                                              requested a change of
                 receipt and disposition    Directive 10,230.5 to include                                 management decision.      OCFO accepted
                 by inspectors at meat and instructions on maintaining the log                            OIG concurred with the    final action on
4                poultry establishments.    by December 2000.                    Yes          None        change on June 5, 2003.   July 3, 2003.




          USDA/OIG-A/24001-4-At                                                                                                       Page 25
                                                                                                                                 Exhibit B - Page 4 of 10
Recommendation




                                                                                                        Action




                                                                                          Management
                                                                                           Decision
    Number




                                                                                                        Needed
                                                                                                                 Recommendatio            FSIS Requested
                   Recommendation                      Agency Response                                   for
                                                                                                                 n Implemented             Final Action
                                                                                                        Mgmt.
                                                                                                         Dec.

                                              FSIS officials stated that they have
                                              determined that it is necessary for
                                              inspector's to ship samples on Fridays
                                              and on days preceding holidays for
                                              Salmonella analysis. However, the
                                              agency disagrees that further
                                              negotiation of the contract is necessary,
                                              since the General Services
                                              Administration contract with the
                                              overnight courier does require
                                              Saturday delivery of samples if these
                                              are properly labeled. FSIS officials
                                              stated that they have had Saturday
                                              delivery of HACCP samples since the
                                              initiation of the HACCP Salmonella
                                              Program on January 26, 1998. All
                                              laboratories receive and process
                                              samples via the overnight courier on
                                              Saturdays and selected holidays. They
                                              stated that FSIS has experienced                                   Yes
                                              occasional problems with Saturday
                                              deliveries only in a few remote                                    FSIS now includes
                 Determine whether it is      locations. They also stated that OIG                               a flier in all boxes
                 necessary for FSIS           may have experienced difficulty                                    going out to the
                 inspectors to be able to     shipping samples due to the lack of                                field, instructing the
                 ship product samples to      "Saturday Delivery" labels.                                        inspectors to check
                 the field laboratories on                                                                       the Saturday
                 Fridays and on days          Regarding holiday deliveries, FSIS                                 Delivery box if
                 preceding holiday.           maintains close contact with the                                   shipping on a
                 Renegotiate the existing     overnight courier to determine which                               Friday. Also, a
                 agreement with the           holidays the courier is not operating.                             Saturday Delivery
                 overnight courier to         In situations where the courier does not                           label must be
                 ensure next-day deliveries   deliver on a particular holiday, FSIS                              affixed to the
                 of such shipments, or        notifies the inspectors in all HACCP                               shipment box.
                 inform the laboratories      establishments so that samples are not
                 and all FSIS inspectors to   sent. Finally, FSIS officials stated that                          In addition,
                 discontinue shipments of     the overnight courier recently initiated                           inspectors are now
                 product samples on these     a new process that does not require the                            sent flyers to
                 days if alternative          use of special labels for Saturday                                 remind them not to
                 methods are developed to     delivery. A new flyer is being                                     send out samples on OCFO accepted final
                 test products that are       distributed to all FSIS inspectors                                 the day preceding a action on
5                produced on these days.      immediately.                              Yes            None      holiday.            October 28, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                       Page 26
                                                                                                                           Exhibit B - Page 5 of 10
Recommendation



                                                                                       Action




                                                                         Management
                                                                          Decision
    Number



                                                                                       Needed
                                                                                                      Recommendation                  FSIS Requested
                   Recommendation              Agency Response                          for
                                                                                                       Implemented                     Final Action
                                                                                       Mgmt.
                                                                                        Dec.

                                                                                                No

                                                                                                FSIS officials provided us with a
                                                                                                copy of the proposed performance
                                                                                                standard for bacon. The proposed
                 Ensure that all                                                                rule that FSIS provided us was a
                 establishments                                                                 draft and FSIS was unable to
                 producing bacon                                                                provide timeframes when the
                 products are subject to                                                        regulations would be
                 required testing for       FSIS agreed to publish, by                          implemented. FSIS did not report
                 nitrosamines.              March 2, 2001, a rule to                            the draft in the Federal Register,
                 Implement a                convert the nitrosamines                            nor could they tell us when the
                 comprehensive program      testing requirements of                             draft would go to the Federal
                 for testing for this       10 Code of Federal                                  Register.
                 substance, under which     Regulations (CFR) 318.7(b)                                                               FSIS submitted draft
                 all bacon-producing        into performance standards                          Therefore we believe that this       documentations for
                 establishments would       under HACCP. The                                    recommendation has not been          final action to OCFO
                 have product subject to    standard would address the                          sufficiently implemented and that    on January 9, 2003.
                 periodic testing over a    nitrosamines levels as well                         FSIS submitted documents and
                 predetermined period of    as the potential growth of                          requested final closure              OCFO's decision is
6                time.                      Clostridium botulinum.        Yes         None      prematurely.                         still pending.
                                            FSIS agreed to develop
                                            procedures to assist in the
                                            review, evaluation, and
                                            reporting of check sample
                 Establish monitoring       results. Additional
                 procedures to ensure that mechanisms would be
                 the results of proficiency developed to ensure that any
                 check samples are          necessary corrective actions
                 reported to the            are implemented, recorded,
                 laboratories in a timely   and properly reported to the
                 manner, and that           appropriate officials. FSIS
                 laboratories are required officials stated that they had
                 to provide written         drafted standard operating                          Yes
                 responses to ensure that procedures (SOP) to
                 appropriate corrective     strengthen these controls.                          FSIS developed SOP's No: LW-
                 action, such as training   The new procedures were to                          0025.01 for laboratory proficiency OCFO accepted
                 or increased supervision, be completed by                                      testing. This SOP became           final action on
7                is taken.                  September 2000.               Yes         None      effective on August 24, 2001.      October 28, 2002.




           USDA/OIG-A/24001-4-At                                                                                                         Page 27
                                                                                                                               Exhibit B - Page 6 of 10
Recommendation


                                                                                                      Action




                                                                                         Management
                                                                                                      Needed




                                                                                          Decision
    Number



                                                                                                        for     Recommendation           FSIS Requested
                   Recommendation                       Agency Response
                                                                                                      Mgmt.      Implemented              Final Action
                                                                                                       Dec.


                                              FSIS officials stated that they were in the
                 Develop and implement        process of instituting improvements to
                 procedures that schedule     the management of reviews of the FSIS
                 onsite laboratory reviews    laboratories to include the areas of
                 at regular intervals,        scheduling, auditing, reporting, tracking,
                 establish guidelines for     and followup on corrective actions. They
                 issuing reports within       stated that QAB scientists had been
                 specified timeframes,        assigned specific tracking and followup
                 and require the              responsibilities. Also, QAB was
                 laboratories to respond to   developing SOP’s to help ensure that
                 the reports’                 reviews, responses, and corrective
                 recommendations. In          actions all occur in a timely, efficient,
                 addition, implement          and acceptable manner. The following
                 procedures for Quality       SOP’s were under development and were                            Yes
                 Assurance Branches           expected to be completed by
                 (QAB) to track the status    October 2000 (1) preparation,                                    FSIS developed SOP
                 of both draft and issued     submission, and tracking of field service                        No: L-0004.01 for FSIS
                 reports to ensure that       laboratory audit reports and                                     laboratory system audits.
                 they are processed and       (2) scheduling and conducting of field                           This SOP became           OCFO accepted final
                 responded to in a timely     service and other agency laboratory                              effective on              action on
8                manner.                      audits.                                     Yes         None     January 18, 2002.         October 28, 2002.
                 Require the (Salmonella
                 test kit) vendor to begin
                 immediate preparation of
                 a new production lot of
                 Salmonella test kits,        On November 19, 1999, agency officials
                 which meet the               stated that the vendor had agreed to begin
                 Microbiology Laboratory      immediate preparation of a new
                 Guide (MLG) and              production lot of Salmonella test kits,
                 Association of Analytical    which meet the MLG and AOAC
                 Chemists (AOAC)              standards so that the use of tests kits from
                 standards, so that the use   the two existing lots could be
                 of the test kits from the    discontinued at the earliest possible time.
                 two existing lots can be     In the response to the official draft, FSIS                                               OCFO accepted final
                 discontinued at the          officials stated that they had obtained                                                   action on
9                earliest possible time.      new test kits.                               Yes        None     Yes                      October 28, 2002.




           USDA/OIG-A/24001-4-At                                                                                                            Page 28
                                                                                                                                Exhibit B - Page 7 of 10
Recommendation




                                                                                               Action




                                                                                  Management
                                                                                   Decision
    Number




                                                                                               Needed
                                                                                                              Recommendation             FSIS Requested
                   Recommendation                   Agency Response                             for
                                                                                                               Implemented                Final Action
                                                                                               Mgmt.
                                                                                                Dec.

                                                                                                        Yes

                                                                                                        FSIS changed the MLG to state
                                                                                                        “Any screening method under
                                              FSIS did not believe that a                               consideration for Salmonella
                                              change in contract specifications                         testing must meet or exceed the
                                              was needed. They believe                                  following performance
                                              instead that changing the MLG                             characteristics: sensitivity
                                              performance characteristics to                            97%, specificity 90%, false
                 Amend FSIS contract          make them more stringent would                            negative rate 3%, and false
                 specifications for           meet the intent of the                                    positive rate 10%”. The         OCFO accepted final
                 Salmonella test kits to      recommendation. OIG agreed to                             changes became effective on     action on
10               comply with the MLG.         this change.                        Yes          None     October 25, 2002.               October 28, 2002.
                 Establish an inventory
                 reorder point to ensure
                 that orders for new test
                 kits are placed early
                 enough to allow                                                                        Yes
                 sufficient time for FSIS     FSIS agreed to establish an
                 to verify that production    inventory reorder point to ensure                         FSIS directed the laboratories
                 lots meet requirements,      that orders for new kits are placed                       to submit purchasing orders for
                 or if necessary to obtain    early enough to allow sufficient                          kits when existing inventory
                 new test kits before the     time to verify that they meet                             has been reduced to a 2-month OCFO accepted final
                 laboratories exhaust their   requirements before laboratories                          supply. This action was         action on
11               existing stocks.             exhaust the existing supplies.      Yes          None     completed November 4, 1999. March 4, 2003.




                 USDA/OIG-A/24001-4-At                                                                                                        Page 29
                                                                                                                            Exhibit B - Page 8 of 10
Recommendation


                                                                                      Action




                                                                         Management
                                                                          Decision
    Number


                                                                                      Needed
                                                                                                                                          FSIS Requested
                 Recommendation               Agency Response                           for    Recommendation Implemented
                                                                                                                                           Final Action
                                                                                      Mgmt.
                                                                                       Dec.

                 Establish a training
                 program that will
                 (1) identify required
                 training for
                 microbiology staff
                 members; (2) provide
                 formal; structured                                                            Yes
                 training in addition to
                 informal on-the-job       FSIS officials stated that                          FSIS developed SOP No:
                 training; (3) document    the agency had drafted new                          LW-0040.00 for FSIS Microbiology
                 the training provided     SOP’s and work                                      Analyst Training and Ongoing
                 to each staff member;     instructions that would                             Demonstration of Competency and
                 (4) assess and            address OIG’s concerns.                             SOP No: LW-0039.00 for Chemistry
                 document the              FSIS also agreed to                                 Analyst Training. Both SOP's
                 competence of each        develop more extensive                              became effective on
                 staff member to           checklists for on-the-job                           November 18, 2001.
                 perform tests and         training and to implement a
                 supporting activities;    periodic testing program
                 and (5) monitor the       for individual analysts to                          FSIS has also implemented the use of
                 continued competence      further demonstrate                                 Laboratory Training Worksheets,
                 of each staff member      continued competency.                               Analyst Method Training Records,       OCFO accepted final
                 to perform laboratory                                                         and Microbiology External Training     action on
12               tests.                                                  Yes          None     Records.                               October 28, 2002.
                                       FSIS agreed to institute a                              Yes
                                       proficiency check sample
                 Develop and           program for the SPOSL.                                  FSIS developed SOP No:
                 implement a quality   In addition, FSIS                                       LW-0009.01 for management              .
                 assurance program for scheduled SPOSL for a                                   reviews. This SOP became effective
                 the Special Project   laboratory review by the                                on November 29, 2001.                  OCFO accepted final
                 and Outbreak Support last quarter of fiscal year                              FSIS instituted a proficiency check    action on
13               Laboratory (SPOSL). (FY) 2000.                          Yes          None     sample program during May 2002.        October 28, 2002.




         USDA/OIG-A/24001-4-At                                                                                                              Page 30
                                                                                                                            Exhibit B - Page 9 of 10
Recommendation


                                                                                          Action




                                                                             Management
                                                                              Decision
    Number


                                                                                          Needed
                                                                                                          Recommendation              FSIS Requested
                   Recommendation                 Agency Response                          for
                                                                                                           Implemented                 Final Action
                                                                                          Mgmt.
                                                                                           Dec.

                                                                                                   Yes
                 Require the laboratories
                 to implement a quality                                                            FSIS developed the following
                 assurance system that                                                             SOPs to ensures adequate
                 ensures adequate                                                                  documentation of analytical
                 documentation of                                                                  results:
                 analytical results,
                 including but not limited                                                         SOP No: ML-0005.00 for
                 to the methods used, and                                                          submitting and reviewing data.
                 incubation times and                                                              This SOP became effective on
                 temperatures. Require                                                             June 20, 2001.
                 supervisory personnel at      FSIS agreed to take steps to
                 the laboratories to ensure,   review if necessary,                                SOP No: WL micro 0017.01 for
                 as part of their review,      enhance the documentation                           data review. This SOP became
                 that all necessary            and supervisory oversight                           effective on September 25, 2001.
                 documentation is being        of all components of the                            In addition, FSIS implemented a    OCFO accepted
                 prepared on an ongoing        laboratory systems by                               microbiology data and quality      final action on
14               basis.                        January 2001.                 Yes          None     control review.                    October 28, 2002.
                 Implement a quality           FSIS agreed to develop
                 assurance system to           additional procedures, work
                 ensure that adequate          instructions, and forms that
                 maintenance, servicing,       would further and more                              Yes
                 and calibration is both       completely document the
                 performed and                 ongoing maintenance,                                FSIS developed MLG Chapter
                 documented as required        servicing, and calibration                          36, SOP LW-0008, to ensure
                 for each piece of             of testing equipment. This                          proper maintenance and             OCFO accepted
                 equipment used in             was to be completed by                              calibrations of laboratory         final action on
15               testing.                      December 2000.                Yes          None     equipment.                         October 28, 2002.
                                               FSIS officials stated that
                                               split sampling was, based
                                               on prior experience, an
                                               ineffective means to ensure
                 Strengthen the agency’s       the accuracy of test results.
                 monitoring of accredited      However, the agency                                 Yes
                 laboratories, particularly    agreed to initiate an
                 those which test official     agreement or contract to                            FSIS revised SOP
                 samples for FSIS,             perform more frequent                               ADMIN/PROG-1, dated
                 through more frequent         accredited laboratory onsite                        November 6, 2002, which requires
                 onsite visits and/or split    visits. FSIS proposed to                            that accredited laboratories are   OCFO accepted
                 sampling of official          implement this action by                            reviewed on-site at least once     final action on
16               product samples.              February 2001.                Yes          None     every 2 years.                     March 4, 2003.




         USDA/OIG-A/24001-4-At                                                                                                          Page 31
                                                                                                                   Exhibit B - Page 10 of 10
Recommendation


                                                                                          Action




                                                                             Management
                                                                              Decision
    Number


                                                                                          Needed
                                                                                                         Recommendation       FSIS Requested
                  Recommendation                Agency Response                            for
                                                                                                          Implemented          Final Action
                                                                                          Mgmt.
                                                                                           Dec.

                                         FSIS officials proposed the
                                         following corrective actions by
                                         March 2001 (1) Update monthly the
                                         list of accredited laboratories,
                                         (2) develop a statement of work to
                                         upgrade the FSIS laboratory data
                                         entry software to accept only valid
                                         accredited laboratory identification
                                         numbers, (3) provide written
                                         instructions to laboratory data entry
                                         personnel dealing with laboratory
                                         identification numbers that were
                                         flagged by the computer as being
                                         valid and
                 Ensure that all test    (4) ensure that Accredited
                 results on official     Laboratory Program officials
                 samples are performed   review relevant instructions,
                 only by                 directives, forms etc., used by field                                                OCFO accepted
                 FSIS-accredited         inspection personnel for chemical                                                    final action on
17               laboratories.           analyses.                             Yes        None     Yes                        April 2, 2003.




         USDA/OIG-A/24001-4-At                                                                                                  Page 32
                 Exhibit C - Summary of the Status of Recommendations – Imported Meat and
                 Poultry Inspection Process - Phase I Audit
                                                                                                                                  Exhibit C - Page 1 of 15
Recommendation




                                                                                                                                Recommendation
                                                                                                                                 Implemented
                                                                                                     Management
                                                                                                      Decision
    Number




                                                                                                                    Action
                                                                                                                                                 FSIS Requested
                    Recommendation                            Agency Response                                      Needed for
                                                                                                                                                  Final Action
                                                                                                                   Mgmt. Dec.


                 Conduct an indepth
                 assessment of the current
                 organizational structure to
                 establish a system of
                 control objectives and        FSIS agreed with this recommendation and the
                 processes to ensure that      agency planned to assess the current organizational
                 the goals of the import       structure and identify import inspection controls,                                                FSIS requested
                 inspection process are        objectives and processes. The assessment was to                                                   final action on
 1               achieved.                     be completed by May 2001.                              Yes         None            No             March 20, 2002.
                                               FSIS believed that management oversight and
                                               approval of changes to import inspection
                                               operations and procedures were adequate.
                                               Inspection of imported meat and poultry product
                                               was controlled through a multi-tiered supervisory
                                               and management oversight structure.

                                               FSIS agreed to prepare a summary of the
                 Require increased             management oversight functions and procedures.
                 management oversight and      These procedures were to outline FSIS’ efforts to
                 approval of changes to        strengthen management controls for all import                                                     FSIS requested
                 import inspection             operations. The consolidated written procedures                                                   final action on
 2               operations and procedures.    were to be developed by March 2001.                    Yes         None           No              March 20, 2002.
                                               FSIS agreed with this recommendation and stated
                                               that it believes in continuous education and
                                               refresher training for its managers in a number of
                                               areas. FSIS agreed to make arrangements for its
                                               Imported Meat and Poultry Inspection managers at
                                               Headquarters, DO's, and the TSC to receive
                                               additional training on management controls. The
                                               agency also agreed to arrange for training similar
                                               to the Management Accountability and Control
                                               (Office of Management and Budget [OMB]
                                               Circular A-123) course offered by the Government
                                               Audit Training Institute at the Graduate School,                                                  Final action
                                               USDA by December 1, 2000. Finally, FSIS                                                           accepted on
                                               agreed to explore including a training module on                                                  October 28, 2002.
                 Provide management            management controls in its Management                                                             OIG disagreed that
                 control training to agency    Leadership and Development Program, which                                                         final action has
 3               managers.                     would be available to all agency managers.             Yes         None            No             been achieved.




                 USDA/OIG-A/24001-4-At                                                                                                                Page 33
                                                                                                                                Exhibit C - Page 2 of 15
Recommendation




                                                                                                                                Recommendation
                                                                                                                                 Implemented
                                                                                                     Management
                                                                                                      Decision
    Number




                                                                                                                    Action
                                                                                                                                                 FSIS Requested
                    Recommendation                            Agency Response                                      Needed for
                                                                                                                                                  Final Action
                                                                                                                   Mgmt. Dec.


                 Revise FSIS Directive
                 1090.1 to incorporate the
                 provisions of OMB
                 Circular A-123, Revised,
                 "Management
                 Accountability and
                 Control," dated               FSIS agreed with this recommendation and
                 June 21, 1995, and to         updated its Directive 1090.1 to incorporate the
                 document specific program     provisions of OMB Circular A-123, Revised,
                 control objectives and the    Management Accountability and Control,” dated
                 review procedures that will   June 21, 1995. The directive outlined a process for
                 provide management            establishing program control objectives and
                 reasonable assurance on       procedures that would provide management                                                          Final action
                 the effectiveness of          reasonable assurance on the effectiveness of                                                      accepted on
 4               controls.                     controls.                                              Yes         None           Yes             October 28, 2002.
                                               FSIS agreed to establish selection criteria for
                                               conducting periodic independent assessment of
                                               FSIS’ programs and organizations as appropriate.
                                               The Executive Steering Committee for
                                               Management Controls would identify and
                                               prioritize for independent assessment selected
                                               processes that changed during the
                                               1997 reorganization that should be reviewed. FSIS
                 Require the FSIS the          agreed to direct the ICS, through guidance
                 Internal Control Staff        provided by the FSIS Executive Steering
                 (ICS) to conduct periodic     Committee on Management Controls, to conduct
                 independent assessments       independent assessments of selected processes that                                                Final action
                 of FSIS' programs and         changed during the 1997 reorganization. A                                                         accepted on
                 operations, emphasizing       memorandum of instruction to the ICS was to be                                                    April 3, 2002. OIG
                 those processes that          issued by September 1, 2000, from the Executive                                                   disagreed that final
                 changed in the                Steering Committee on Management Controls to                                                      action has been
 5               reorganization.               address this recommendation.                           Yes         None           No              achieved.




                 USDA/OIG-A/24001-4-At                                                                                                                Page 34
                                                                                                                                   Exhibit C - Page 3 of 15
Recommendation




                                                                                                                                   Recommendation
                                                                                                                                    Implemented
                                                                                              Management
                                                                                               Decision
    Number




                                                                                                           Action Needed for                        FSIS Requested
                    Recommendation                        Agency Response
                                                                                                              Mgmt. Dec.                             Final Action



                                                                                                           Basic control
                                                                                                           activities, such as
                                                                                                           documented policies,
                                                                                                           procedures,
                                              FSIS strongly disagreed with the OIG                         supervisory reviews
                                              recommendation that the issues outlined in                   and approvals,
                                              this audit report constitute a material                      delegated
                                              management control weakness. They                            responsibilities, and
                                              acknowledged the need to strengthen                          clear lines of
                                              management controls and procedures, but                      authority were
                                              they do not believe that the findings of this                lacking in FSIS’
                                              audit represent a reportable material                        operations. In the
                                              management control weakness. Although,                       absence of the
                                              FSIS agreed with most of the suggested                       indepth assessment of
                                              management controls improvements in this                     controls agreed to in
                                              audit, they do not believe they constituted a                response to
                                              reportable material weakness of the import                   Recommendation No.
                                              inspection process. FSIS would address                       1, FSIS should report
                 Report the conditions        opportunities for strengthening the                          the findings in this
                 disclosed in this audit as   management controls identified in the audit                  audit as material
                 material management          report and report them in accordance with the                control weaknesses in
                 control weaknesses in the    Agency’s assessment of OMB                                   the import inspection
 6               import inspection process.   Circular A-123 requirements.                     No          operations.              No              None
                 Review the roles and
                 responsibilities of
                 personnel involved in the
                 equivalence determination
                 process, the onsite review
                 process, and the input of
                 data to update the
                 Automated Import
                 Information System           FSIS reviewed the roles and responsibilities
                 (AIIS), and define more      of personnel involved in the equivalence
                 specifically the authority   determination process, the onsite review                                                              Final action
                 and responsibilities of      process, and the input of data to update the                                                          accepted on
 7               those units.                 AIIS.                                            Yes         None                     Yes             October 28, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                     Page 35
                                                                                                                                 Exhibit C - Page 4 of 15
Recommendation




                                                                                                                                 Recommendation
                                                                                                                                  Implemented
                                                                                                      Management
                                                                                                       Decision
    Number




                                                                                                                     Action
                                                                                                                                                  FSIS Requested
                    Recommendation                            Agency Response                                       Needed for
                                                                                                                                                   Final Action
                                                                                                                    Mgmt. Dec.


                 Prior to the onsite review,
                 ensure that the TSC
                 reviewers are provided        FSIS agreed to develop formal procedures that will
                 with all information          continue to ensure that the TSC is provided all
                 necessary to verify data      information necessary for the reviewers to verify
                 provided by foreign           data provided by foreign countries during                                                          Final action
                 countries for equivalence     equivalence determinations. The procedures were                                                    accepted on
 8               determinations.               to be completed in December 2000.                       Yes         None            Yes            April 3, 2002.
                                               FSIS developed updated import training for field
                                               inspectors who conduct import inspection
                                               activities. Training began in FY 2001 and
                 Provide training to all       included on-the-job training, pre-classroom
                 inspectors responsible for    CD-ROM’s that cover basic import inspection                                                        Final action
                 conducting inspections of     procedures, and a formal training session at various                                               accepted on
 9               imported products.            United States ports of entry.                           Yes         None           Yes             May 20, 2003.
                 With the help of technical
                 subject-matter experts,
                 develop and implement
                 comprehensive guidelines
                 as a means of ensuring
                 propriety and consistency
                 in decisions involving                                                                                                           Final action
                 equivalency                   FSIS developed and implemented comprehensive                                                       accepted on
 10              determinations.               written guidelines for equivalence determinations.      Yes         None           Yes             April 3, 2002.
                 Develop written criteria
                 and procedures for
                 suspending the eligibility
                 of exporting countries that
                 do not provide sufficient
                 documentation to support      FSIS agreed with this recommendation. FSIS
                 their continuing              regulations, 9 CFR 327.2, delineate criteria for
                 compliance with United        both initially determining the eligibility of a
                 States equivalency            foreign country to import products into the United
                 standards or are found to     States and for withdrawing a foreign country’s
                 be in noncompliance based     eligibility to import. FSIS was to consolidate this                                                Final action
                 on the results of an onsite   requirement into formal procedures and guidelines                                                  accepted on
 11              equivalency review.           by March 2001.                                          Yes         None           Yes             October 28, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                 Page 36
                                                                                                                              Exhibit C - Page 5 of 15
Recommendation




                                                                                                                              Recommendation
                                                                                                                               Implemented
                                                                                                   Management
                                                                                                    Decision
    Number




                                                                                                                  Action
                                                                                                                                               FSIS Requested
                    Recommendation                           Agency Response                                     Needed for
                                                                                                                                                Final Action
                                                                                                                 Mgmt. Dec.


                                              Consolidated written procedures were developed to
                                              document equivalence decisions regarding
                                              alternative import inspection methods. Effective
                                              July 1, 2000, new equivalence decision files
                                              documented (1) All FSIS correspondence with
                                              foreign countries; (2) All foreign country
                 Develop written              submissions (translated and in the originating
                 procedures, which ensure     language); (3) Summary International Policy
                 comprehensive evaluations    Division (IPD) reviews of submissions;
                 of foreign countries'        (4) Summary of all meetings and teleconferences
                 alternative import           with foreign officials; (5) Summary of all reviews
                 inspection methods, and      by subject-matter experts; (6) Documentation of
                 require the analysis of      equivalence criteria; (7) Summary of all FSIS
                 these systems be             management formal reviews and approvals; and                                                     Final action
                 documented, as well as the   (8) decision memorandum of the equivalence                                                       accepted on
 12              decisions reached.           determinations.                                       Yes         None           Yes             April 3, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                              Page 37
                                                                                                                                Exhibit C - Page 6 of 15
Recommendation




                                                                                                                                Recommendation
                                                                                                                                 Implemented
                                                                                                     Management
                                                                                                      Decision
    Number




                                                                                                                    Action
                                                                                                                                                 FSIS Requested
                    Recommendation                           Agency Response                                       Needed for
                                                                                                                                                  Final Action
                                                                                                                   Mgmt. Dec.


                                              FSIS agreed that additional documentation would
                                              assist in clarifying the current system to both
                                              Agency personnel as well as outside auditors.
                                              FSIS was to be reevaluating the current system as
                                              part of the redesign of the AIIS and was to improve
                                              the documentation by December 2000 to outline
                                              the procedures for entering laboratory results into
                                              the AIIS system.

                                              As an interim measure, in March 2000, the Field
                                              Automation and Information Management (FAIM)
                                              Division instituted non-automated procedures to
                                              streamline the entry of residue and microbial
                                              results. As of March, FAIM received faxes from
                                              the TSC of laboratory Form 9770-2 for all positive
                                              residue results. The FAIM Division then
                                              documented directly on the laboratory form both
                                              the date it was received (via fax) and the date/time
                                              the lab results were entered into AIIS. Entries into
                                              the AIIS were to be made the same day they are
                                              received. Also, an internal verification process
                                              was to be established to monitor the data being
                                              entered into the AIIS.

                                              Also, FSIS was working to replace the AIIS. The
                                              new system, eventually sharing Sybase SQL tables
                                              with the Microbiological and Residue Computer
                                              Information System (MARCIS) and other agency
                                              systems will ensure real time accuracy of both
                                              negative and positive results of residue tests and                                                 Final action
                 Streamline the process and   microbiological tests. The FAIM Division began                                                     accepted on
                 establish procedures that    work on the new AIIS application in March 2000,                                                    October 28, 2002.
                 would allow expeditious      with a test pilot planned for the first quarter of                                                 OIG disagreed that
                 entry of laboratory test     2001. FSIS expected the system to be fully                                                         final action has
 13              results into the AIIS.       operational by December 2001.                           Yes         None           No              been achieved.




                 USDA/OIG-A/24001-4-At                                                                                                                Page 38
                                                                                                                                 Exhibit C - Page 7 of 15
Recommendation




                                                                                                                                 Recommendation
                                                                                                                                  Implemented
                                                                                                      Management
                                                                                                       Decision
    Number




                                                                                                                     Action
                                                                                                                                                  FSIS Requested
                    Recommendation                             Agency Response                                      Needed for
                                                                                                                                                   Final Action
                                                                                                                    Mgmt. Dec.


                                               FSIS agreed with this recommendation. The FAIM
                                               Division was to focus on incorporating the required
                                               management controls in the replacement AIIS,
                                               which was to be completed by December 2001.
                                               The new import computer system would document
                                               when laboratory failure results are received and
                                               incorporated into the system data tables. In the
                                               interim, FSIS established a manual tracking process
                                               that documents when notification of failures is
                                               received and when the entries are made into the
                                               AIIS. Entries were to be made within
                                               24 hours of receipt of the positive laboratory
                                               results. Negative results were to be obtained via a
                                               weekly download from MARCIS and entered that
                                               same day into the AIIS.
                 Require the Office of
                 Field Operations to work      FSIS believed that the management controls and
                 with the TSC and the          supervisory review process could be enhanced to
                 FAIM Division to develop      ensure that all laboratory results are promptly and
                 management controls and       accurately entered into the AIIS. Management
                 a supervisory review          controls currently included requirements for
                 process to ensure that all    maintaining records that indicate when failure
                 laboratory test results are   notifications are received, and when the entries are
                 promptly and accurately       made into the AIIS.
                 entered into the AIIS.
                 Management controls           Under the new import information system,
                 must include requirements     laboratory results are no longer entered manually.
                 for maintaining records of    Test results are electronically transferred from
                 when failure notifications    MARCIS to the new system. A staff person has
                 are received and when the     been assigned to verify the data exchange is                                                       FSIS had not
                 entries are made into the     performed successfully each day. The procedures                                                    requested final
 14              AIIS.                         for this process will be provided by January 2003.      Yes         None           No              action.




                 USDA/OIG-A/24001-4-At                                                                                                                 Page 39
                                                                                                                                   Exhibit C - Page 8 of 15
Recommendation




                                                                                                                                         Recommendation
                                                                                                                                Action




                                                                                                                                          Implemented
                                                                                                                   Management
                                                                                                                    Decision
    Number




                                                                                                                                Needed                        FSIS
                 Recommendation                                    Agency Response                                               for                        Requested
                                                                                                                                Mgmt.                      Final Action
                                                                                                                                 Dec.

                                          FSIS agreed that meat and poultry products exported to the United
                                          States must be produced in properly certified foreign establishments.
                                          To ensure that this occurs, the FAIM Division was to establish a
                                          Web site with search capabilities that allows import inspectors to
                                          obtain the status (certification, delistment, relistment) of foreign
                                          establishments.

                                          FSIS agreed to continue to notify all countries that certifications of
                                          establishments must be renewed annually, and if establishments are
                                          not certified annually they may be delisted. However, FSIS did not
                                          agree with the OIG’s assertion that allowing countries to delay their
                                          certifications “reduces the control to prevent products from
                                          uncertified establishments from entering the United States.”

                                          According to FSIS, annual certification lists are often obsolete soon
                                          after they arrive because importing countries add and delete certified
                                          establishments throughout the year. Furthermore, an additional
                                          method exists to verify that the imported product was produced in an
                                          establishment certified for export to the United States. This method
                                          is set forth in 9 CFR 327.4, “Imported products, foreign certificates
                                          required.” A foreign meat inspection certificate must accompany
                                          each consignment of fresh meat, fresh meat byproducts, or meat food
                                          products. All such consignments (or lots) offered for entry into the
                                          United States from any foreign country must be reinspected by an
                                          FSIS import inspector before they are allowed into this country. An
                 Officially notify all    authorized foreign government official signs the certification
                 countries importing      accompanying each lot.
                 meat and poultry into
                 the United States that   FSIS believed that these certificates provide ample evidence that the
                 annual certifications    product they accompany was produced in a foreign-certified
                 are due no later than    establishment. By September 2001, FSIS planned to publish a
                 the established date     proposed revision of Part 327, Imported Products, to eliminate the
                 and that                 annual certification requirement.
                 establishments that
                 are not certified by     In October 2002, FSIS established a target date of January 15 as
                 this date may be         when countries will be notified that annual certifications are due. On
                 delisted. Incorporate    that date each year, FSIS will notify countries that their annual                                               Final action
                 this requirement in      certifications will be required within 120 days and the consequences                                            accepted on
 15              regulations.             if the certifications are not received by the required date.             Yes          None      Yes             April 9, 2003.




                 USDA/OIG-A/24001-4-At                                                                                                                    Page 40
                                                                                                                                   Exhibit C - Page 9 of 15
Recommendation




                                                                                                                                   Recommendation
                                                                                                                                    Implemented
                                                                                                        Management
                                                                                                         Decision
    Number




                                                                                                                       Action
                                                                                                                                                    FSIS Requested
                    Recommendation                             Agency Response                                        Needed for
                                                                                                                                                     Final Action
                                                                                                                      Mgmt. Dec.


                                               FSIS was to establish a followup process to obtain
                                               annual certification lists from countries that had not
                                               submitted them. This process was subject to
                                               change after the proposed revisions (see response to
                                               Recommendation No. 15) in Part 327 were
                                               implemented.

                                               Annual certification lists were to be sent from
                                               foreign countries to the IPD. In July 1999,
                                               effective for calendar year 2000, the FAIM
                                               Division established a procedure to notify IPD of
                                               every country for which FAIM has not received an
                                               annual certification of establishments. Starting in
                                               February 2000, and continuing on a monthly basis,
                                               the FAIM Division was to notify the IPD of
                 Establish a followup          outstanding certification lists.
                 process to obtain the
                 annual certification lists    FSIS was reviewing its current procedures and                                                        Final action
                 from the countries, which     would implement improvements to the followup                                                         accepted on
 16              have not submitted them.      process by December 2000.                                 Yes         None           Yes             April 3, 2002.
                 Immediately conduct           FSIS agreed with the recommendation. Following
                 reconciliation between        the onsite portion of the OIG audit, the FAIM
                 establishment certification   Division established a program of quarterly
                 information maintained by     crosschecks of foreign government certification
                 the Equivalence and           documents against the establishment listings
                 Planning Branch and the       contained in the AIIS. In addition, effective
                 AIIS to ensure that the       April 1999, the FAIM Division began sending to                                                       Final action
                 AIIS includes only those      the IPD a weekly report listing all certified and                                                    accepted on
                 establishments certified by   decertified establishments maintained in the AIIS.                                                   October 28, 2002.
                 their foreign governments     IPD was to begin reconciliation of the FAIM                                                          OIG disagreed that
                 to ship products to the       reported data and their internal records by                                                          final action has
 17              United States.                December 2000.                                            Yes         None           No              been achieved.
                                               FSIS agreed with this recommendation. The FAIM
                                               Division maintains an internal AIIS Import manual
                                               of procedures document that was to be updated by
                                               December 2000, to address time requirements and
                 Establish time                management control processes. Supervisory
                 requirements and a            oversight was to be established whereby all
                 management control            changes to the AIIS status of establishments were
                 process for reviewing and     to be forwarded to the Branch Chief of the FAIM                                                      FSIS requested
                 processing certification      Applications Systems Development Branch for                                                          final action on
 18              information in the AIIS.      review.                                                   Yes         None           No              March 20, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                   Page 41
                                                                                                                                 Exhibit C - Page 10 of 15
Recommendation




                                                                                                                                  Recommendation
                                                                                                                                   Implemented
                                                                                                      Management
                                                                                                       Decision
    Number




                                                                                                                     Action
                                                                                                                                                   FSIS Requested
                    Recommendation                            Agency Response                                       Needed for
                                                                                                                                                    Final Action
                                                                                                                    Mgmt. Dec.


                 Take immediate action to
                 ensure that the TSC, the
                 FAIM Division, and the        FSIS agreed with this recommendation and stated
                 Equivalence and Planning      that the agency would improve its system to verify                                                  Final action
                 Branch coordinate efforts     that all delisted establishments are timely and                                                     accepted on
                 to verify that all delisted   properly entered into the AIIS. FSIS established                                                    October 28, 2002.
                 establishments have been      and documented procedures, dated July 2001, for                                                     OIG disagreed that
                 timely entered into the       handling notifications of establishment                                                             final action has
 19              AIIS.                         certifications.                                         Yes         None            No              been achieved.
                                                FSIS established a management control process to
                                                address this recommendation. FSIS is notified by
                                                fax or electronic mail from the foreign country
                                                government or through the Foreign Agricultural
                                                Service about foreign country establishments
                                                delisted prior to TSC reviews. This information is
                                                shared by all of the stakeholders, and discussed at
                                                the pre-audit conference held between the TSC and
                                                the IPD.

                                               Foreign country establishments are also delisted
                 Establish a management        based upon results of onsite reviews by the TSC
                 control process to ensure     reviewers. Reviewers report this information, by
                 that the TSC Director         phone, to the Review Staff Director or Chief of the
                 promptly forwards to the      International Review Branch as soon as possible,
                 Office of Policy, Program     but no later than the day following the onsite
                 Development and               review. This information is also detailed in an
                 Evaluation information        electronic mail message immediately sent to the
                 about foreign                 Chief of the Equivalency and Planning Branch,
                 establishments that were      IPD and also to the Director of the Import/Export,
                 delisted prior to, or         Program Analysis, IRM Staff at the TSC. A paper                                                     Final action
                 because of, TSC foreign       copy of the electronic mail message is placed in the                                                accepted on
 20              reviews.                      foreign country file at the TSC.                        Yes         None            Yes             October 28, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                  Page 42
                                                                                                                                  Exhibit C - Page 11 of 15
Recommendation




                                                                                                                                   Recommendation
                                                                                                                         Action




                                                                                                                                    Implemented
                                                                                                            Management
                                                                                                             Decision
    Number




                                                                                                                         Needed
                                                                                                                                                    FSIS Requested
                    Recommendation                               Agency Response                                           for
                                                                                                                                                     Final Action
                                                                                                                         Mgmt.
                                                                                                                          Dec.

                 Establish a management        Pursuant to the report, the FAIM Division implemented
                 control process to ensure     in May 2000, a management control process whereby the
                 that delistment information   Branch Chief, Application Development and Support
                 is (a) reviewed and signed    Branch, FAIM Division will be notified via e-mail of all                                             Final action
                 by a designated official to   incoming delistments received from IPD. Notification                                                 accepted on
                 the FAIM Division, via a      was to include the date delistments are received, the date                                           October 28, 2002.
                 dated control number and      the information was entered into the AIIS, and a printout                                            OIG disagreed that
                 (b) processed and verified    of all establishments as they appear in the AIIS. This                                               final action has
 21              in the AIIS.                  procedure was to be completed by October 2000.                Yes         None       No              been achieved.
                                               FSIS agreed with this recommendation. The FAIM
                                               Division had begun replacing the AIIS that was first
                                               deployed in the 1970's. Available resources will be better
                                               used in continuing development of the replacement AIIS,                                              Final action
                                               rather than making the recommended changes to the                                                    accepted on
                 Modify the AIIS to            current AIIS. The new system was to incorporate this                                                 October 28, 2002.
                 produce daily process         recommendation in its design. The intent of the                                                      OIG disagreed that
                 control reports to enable     recommendation was to be met when the new computer                                                   final action has
 22              verification of input.        system is completed by December 2001.                         Yes         None       No              been achieved.
                                               FSIS agreed with the recommendations and that it needed
                                               to strengthen its review of foreign country test plans. An
                                               interagency team was created on June 1, 2000, and
                                               expected to complete its initial review by
                                               December 2000. The team was responsible for the
                                               receipt, review, and analysis of all foreign country
                                               residue submissions. The team was also comprised of
                                               representatives of Office of Policy, Program
                                               Development, and Evaluation, Office of Field Operations,
                                               and Office of Public Health and Science. The team was
                                               to review the submissions, based on United States
                                               regulations, to determine if the information was adequate,
                                               if the documents indicated the countries met United
                                               States requirements, and if additional information was
                                               needed.
                 Establish procedures to
                 ensure that all residue       FSIS questioned the need for collecting past residue plans
                 documents submitted by        and results because much more comprehensive
                 foreign countries are         information would be provided by the review performed
                 received, reviewed, and       by the interagency team.
                 analyzed based on                                                                                                                  Final action
                 requirements outlined in      By December 2000, FSIS expected to complete its                                                      accepted on
 23              regulations.                  assessment of the country’s controls.                         Yes         None       Yes             April 3, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                   Page 43
                                                                                                                                     Exhibit C - Page 12 of 15
Recommendation




                                                                                                                        Recommendation
                                                                                                                         Implemented
                                                                                             Management
                                                                                              Decision
    Number



                                                                                                            Action
                                                                                                                                         FSIS Requested
                    Recommendation                        Agency Response                                  Needed for
                                                                                                                                          Final Action
                                                                                                           Mgmt. Dec.




                 Obtain the residue test
                 plans not submitted since
                 1998 to determine if the
                 foreign countries have
                 residue control standards                                                                                               Final action
                 equivalent to the United                                                                                                accepted on
24               States.                       See response in Recommendation No. 23.         Yes         None           Yes             April 3, 2002.

                 Obtain and analyze the
                 residue test plan results
                 not submitted since
                 1998 to determine the
                 adequacy of foreign                                                                                                     Final action
                 countries' adherence to                                                                                                 accepted on
25               their residue test plans.     See response in Recommendation No. 23.         Yes         None           Yes             April 3, 2002.
                                               The IPD was to provide the Director of the
                                               Review Staff at the TSC with a summary
                                               of the information in residue
                                               questionnaires submitted by countries
                                               eligible to export to the United States.
                                               The Review Staff was part of the team that
                                               would review the submissions. The
                                               Review Staff and the IPD were to use the
                                               information, along with port-of-entry
                                               results and information from past audits,
                 Develop procedures to         to plan upcoming reviews.
                 ensure that (a) a review of
                 residues identified by the    FSIS planned to initiate indepth reviews of
                 exporting country's meat      residue programs in a number of countries
                 inspection authorities or     exporting to the United States. These
                 by FSIS as potential          reviews were to make a comprehensive
                 contaminants are included     evaluation of the effectiveness of the
                 as part of the TSC onsite     country’s controls over drugs and
                 equivalency reviews and       chemicals that could contaminate meat
                 (b) appropriate action is     and poultry. The reviews were expected
                 taken in those instances      to be completed by June 2001.
                 where the plans are
                 inadequate, the results       FSIS planned to have these residue review                                                 Final action
                 vary from the plans, or       procedures developed, documented, and                                                     accepted on
26               violations are detected.      implemented by December 2000.                  Yes         None           Yes             May 20, 2003.




                 USDA/OIG-A/24001-4-At                                                                                                                Page 44
                                                                                                                               Exhibit C - Page 13 of 15
Recommendation




                                                                                                                                Recommendation
                                                                                                                                 Implemented
                                                                                                    Management
                                                                                                     Decision
    Number




                                                                                                                   Action
                                                                                                                                                 FSIS Requested
                      Recommendation                           Agency Response                                    Needed for
                                                                                                                                                  Final Action
                                                                                                                  Mgmt. Dec.


                 Develop procedures that
                 require the participation of
                 technical subject-matter
                 experts, as appropriate, in
                 equivalency determinations,      FSIS developed formal procedures for
                 and document the experts'        participation of technical subject-matter                                                      Final action
                 participation, analyses, and     experts, as appropriate, in equivalence                                                        accepted on
 27              conclusions.                     determinations.                                    Yes         None            Yes             April 3, 2002.
                                                  FSIS formalized its procedures and
                                                  documentation of equivalence decisions.
                                                  Effective July 1, 2000, new equivalence
                                                  decision files documented (1) All FSIS
                                                  correspondence with foreign countries; (2) All
                                                  foreign country submissions (translated and in
                 Document and implement a         the originating language); (3) Summary IPD
                 system of internal controls to   reviews of submissions; (4) Summary of all
                 ensure the adequacy and          meetings and teleconferences with foreign
                 support for foreign              officials; (5) Summary of all reviews by
                 equivalency determinations.      subject-matter experts; (6) Documentation of
                 This should include a formal     equivalence criteria; (7) Summary of all FSIS
                 review and approval process      management formal reviews and approvals;                                                       Final action
                 for the equivalence              and (8) Decision memorandum of the                                                             accepted on
 28              determinations made.             equivalence determinations.                        Yes         None            Yes             April 3, 2002.
                 Develop a management
                 control process and procedures
                 to ensure equivalence
                 decisions are adequately
                 documented. The procedures
                 should require that files
                 contain supporting evidence,
                 including detailed analysis of
                 information received and         FSIS agreed that equivalence decisions should
                 reviewed, resolution of issues   be adequately documented and that the files
                 raised during the review         must be complete. Therefore, FSIS instituted                                                   Final action
                 process, and conclusions         the same measures described in response to                                                     accepted on
 29              reached.                         Recommendation No. 28.                             Yes         None            Yes             April 3, 2002.
                 Establish a time-phased plan                                                                                                    Final action
                 to expedite the process for      FSIS implemented time-phased plans for future                                                  accepted on
 30              determining equivalency.         equivalence determinations.                        Yes         None            Yes             October 28, 2002.
                 Ensure that onsite audits for                                                                                                   Final action
                 current trading partners are     FSIS incorporated this into the FSIS procedures                                                accepted on
 31              conducted at least annually.     for import inspections.                            Yes         None            Yes             April 3, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                Page 45
Recommendation                                                                                                             Exhibit C - Page 14 of 15




                                                                                                                               Recommendation
                                                                                                                                Implemented
                                                                                                      Management
                                                                                                                     Action




                                                                                                       Decision
    Number


                                                                                                                     Needed                     FSIS Requested
                    Recommendation                            Agency Response
                                                                                                                   for Mgmt.                     Final Action
                                                                                                                      Dec.


                 For current trading
                 partners, develop and
                 implement a policy for
                 onsite verifications of
                 changes in the               FSIS revised onsite audit inspection system                                                       Final action
                 requirements for foreign     procedures for verification of changes in                                                         accepted on
 32              inspection systems.          requirements.                                            Yes         None         Yes             October 28, 2002.
                 Clarify the regulations
                 regarding FSIS’
                 procedures for determining
                 equivalence for current      FSIS took into consideration major changes, such
                 trading partners, taking     as PR/HACCP, as it documented its procedures for
                 into consideration major     determining whether equivalence is maintained for
                 changes such as HACCP        current trading partners, as referenced in response                                               Final action
                 and pathogen reduction       to Recommendation No. 12. In addition, FSIS                                                       accepted on
 33              requirements.                revised onsite audit inspection system procedures.       Yes         None         Yes             April 3, 2002.
                                              At the time of the OIG audit, FSIS was in the
                                              process of developing an enhanced uniform audit
                                              format that addressed the following five risk areas
                                              (1) animal disease controls; (2) sanitation controls;
                                              (3) enforcement controls; (4) slaughter and
                                              processing controls; and (5) residue controls.
                                              These five risk areas cover all of the FSIS
                 Ensure that reporting and    regulatory requirements for countries that export to
                 evidence standards           the United States. Subsequent to the OIG audit,
                 developed for equivalency    the audit format was finalized.
                 verification reviews
                 provide for appropriate      The new audit format has been implemented for all
                 documentation of all areas   FSIS audits conducted since FY 2000. Also, FSIS                                                   Final action
                 required to be reviewed by   enhanced audit planning to ensure that onsite                                                     accepted on
 34              regulation.                  audits cover all relevant areas.                         Yes         None         Yes             October 28, 2002.




       USDA/OIG-A/24001-4-At                                                                                                                       Page 46
                                                                                                                                  Exhibit C - Page 15 of 15
Recommendation




                                                                                                                                   Recommendation
                                                                                                                                    Implemented
                                                                                                       Management
                                                                                                        Decision.
    Number




                                                                                                                      Action
                                                                                                                                                    FSIS Requested
                    Recommendation                            Agency Response                                        Needed for
                                                                                                                                                     Final Action
                                                                                                                     Mgmt. Dec.


                                               FSIS agreed with this recommendation. Formal
                                               procedures were to be completed by
                                               December 2000. In 2000, new foreign country
                                               reporting requirements were instituted. Draft
                                               foreign country reports are due from the reviewers
                                               within 10 working days of their return to the office.
                                               Similar timeframes are in effect throughout the
                                               process, creating a timeline that has the report
                                               completed and in “Draft Final” form to be sent to
                                               the foreign country government officials for
                                               comment within
                                               60 days from the date of the exit conference with
                                               the foreign officials. Because of language
                 Develop procedures for        differences, and necessary time for response, the
                 timely completing reports     foreign countries are allowed 60 days to submit                                                      Final action
                 documenting reviews of        their response to the report, which is included as an                                                accepted on
 35              foreign inspection systems.   attachment to the final report.                          Yes         None            Yes             October 28, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                                   Page 47
                 Exhibit D -          Summary of the Status of Recommendations – District
                 Enforcement Operations - Compliance Activities Audit
                                                                                                                          Exhibit D - Page 1 of 4
Recommendation




                                                                                                                    Recommendation
                                                                                                          Actions




                                                                                                                     Implemented
                                                                                            Management
                                                                                             Decision
    Number




                                                                                                          Needed
                                                                                                                                     FSIS Requested
                    Recommendations                    Agency Response                                      for
                                                                                                                                      Final Action
                                                                                                          Mgmt.
                                                                                                           Dec.


                                                 FSIS agrees with the
                                                 recommendations. FSIS would
                 Enhance FSIS' existing plan     proceed with enhancements to its
                 by improving the process to     plan and prioritize its efforts
                 identify and review high-risk   consistent with available                                                           Final action
                 firms that handle meat and      resources. A revised plan will be                                                   accepted
1                poultry products.               completed by October 2000.           Yes                None       Yes              October 8, 2002.
                                                 FSIS agrees with the
                                                 recommendation to work towards
                                                 standardizing the scope of
                                                 compliance reviews while
                                                 preserving adequate flexibility to
                 Enhance and refine FSIS'        allow compliance officers to
                 existing plan by                utilize their professional
                 incorporating prescribed        judgment and technical expertise
                 review steps for conducting     to act on issues that are unusual
                 compliance reviews for each     or unique. It will develop better
                 of the 14 types of firms FSIS   methods to standardize
                 oversees. The plan should       compliance reviews, such as
                 include a review checklist      enhancing its Investigative
                 along with a compliance         Protocols by including details
                 officer's certification         descriptions of critical areas to
                 statement that the              review for high-risk business                                                       Final action
                 appropriate review steps        types. This process will be                                                         accepted
2                were performed.                 completed by December 2002.          Yes                None       Yes              June 16, 2003.




                 USDA/OIG-A/24001-4-At                                                                                                     Page 48
                                                                                                                              Exhibit D - Page 2 of 4
Recommendation




                                                                                                                          Recommendation
                                                                                                                            Implemented
                                                                                                  Management
                                                                                                                Actions




                                                                                                   Decision
    Number




                                                                                                                Needed                     FSIS Requested
                    Recommendations                        Agency Response
                                                                                                                  for                       Final Action
                                                                                                                Mgmt.
                                                                                                                 Dec.


                                                  FSIS agrees that there is a need to
                                                  improve systems for allocating
                                                  resources more effectively. Its
                                                  improved system will include factors
                                                  such as geographical size,
                                                  administrative workload, level of State
                                                  and local cooperation, population
                                                  density, case documentation, and
                 Enhance FSIS' existing plan      complexity/density of federally-
                 to emphasize the targeting of    inspected establishments. Successful
                 resources to large               implementation of this system will
                 metropolitan and                 assure that the most critical locations
                 geographical areas and to        are adequately staffed. FSIS expects                                                     Final action
                 high-risk firms with a history   to complete this activity by                                                             accepted
   3             of violations.                   December 2002.                            Yes                None         Yes            May 16, 2003.
                 Define effective and
                 meaningful guidelines for        FSIS agrees that much benefit would
                 monitoring and tracking the      be derived from monitoring and
                 progress and completion of       tracking process timelines associated
                 violation cases. Establish       with the investigation and review of
                 procedures for tracking those    violation cases. FSIS is reviewing a
                 timeframes such as               database system to track the process
                 investigative time,              timelines of violation cases from
                 documentation time,              predication to referral to the U.S.
                 supervisory review time,         attorney. FSIS stated that its new                                                       Final action
                 headquarters review time,        system will be fully operational prior                                                   accepted
   4             etc.                             to FY 2001.                               Yes                None         Yes            June 13, 2002.




                    USDA/OIG-A/24001-4-At                                                                                                        Page 49
                                                                                                                                      Exhibit D - Page 3 of 4
Recommendation




                                                                                                                     Recommendation
                                                                                                                       Implemented
                                                                                             Management
                                                                                              Decision
    Number




                                                                                                           Actions
                                                                                                                                         FSIS Requested
                     Recommendations                    Agency Response                                    Needed
                                                                                                                                          Final Action
                                                                                                             for
                                                                                                           Mgmt.
                                                                                                            Dec.


                                                  FSIS agrees with the
                                                  recommendation. FSIS agrees
                                                  that written procedures are
                                                  needed to monitor the receipt of,
                                                  and followup action on consumer
                                                  complaints. FSIS plans to
                                                  centralize this function under one
                                                  unit that will monitor receipt and
                                                  disposition of consumer
                                                  complaints. Until then, FSIS is
                                                  implementing an interim
                 Develop a system, including      monitoring system for the receipt
                 written procedure to monitor     and follow up of consumer
                 receipt and followup action on   complaints from district field
                 all consumer complaints          office staff or those referred to
                 received at District             DEO Headquarters. FSIS intends
                 Enforcement Operations           to have newly reconstituted and
                 (DEO) headquarters, district,    reorganized system implemented                                                       Final action accepted
5                and field office levels.         by March 2001.                       Yes                None       Yes               August 23, 2001.
                                                  FSIS agrees with the
                                                  recommendation and is in the
                                                  process of reviewing the
                                                  16 consumer complaints to
                 Review the 16 consumers'         determine if they have been
                 complaints previously omitted    resolved and perform any follow
                 from review, and perform         up action, if needed. FSIS will
                 follow up actions to             complete the review and follow                                                       Final action accepted
6                satisfactorily resolve them.     up by October 2000.                  Yes                None       Yes               October 8, 2002.




                 USDA/OIG-A/24001-4-At                                                                                                            Page 50
                                                                                                                                 Exhibit D - Page 4 of 4
Recommendation




                                                                                                                                Recommendation
                                                                                                                                  Implemented
                                                                                                                      Actions




                                                                                                         Management
                                                                                                          Decision
    Number




                                                                                                                      Needed                        FSIS
                   Recommendations                          Agency Response                                             for                       Requested
                                                                                                                      Mgmt.                      Final Action
                                                                                                                       Dec.


                                              FSIS agrees with the recommendation that
                                              civil penalties would be an effective
                                              supplement to its current criminal and
                                              administrative authorities. Civil penalties,
                                              while having somewhat limited application,
                                              would provide it with an additional tool to
                                              deter violations of laws and would be
                 Continue to seek the         particularly effective on preventing minor
                 authority to assess civil    violations of law and address situations where
                 monetary penalties against   criminal prosecution or other action is not
                 firms that commit            appropriate. It will continue to work with                                                         Final action
                 violations of meat and       Congress, industry, and the public to obtain                                                       accepted
   7             poultry inspection laws.     this additional authority.                           Yes                None      Yes              June 13, 2002.
                 Reinforce existing
                 compliance Investigative
                 Protocols for developing     FSIS agrees with recommendations and stated
                 standard violation cases.    that it has already taken steps to reinforce
                 Provide training where       existing protocols, procedures, and assure
                 needed to ensure that all    appropriate training of DEO personnel. FSIS
                 Assistant District           has developed orientation and training
                 Managers for                 protocols for newly hired compliance officers
                 Enforcement and              and supervisory personnel. FSIS is currently
                 supervisory compliance       recruiting to address the 58-percent vacancy
                 officers are able to         rate for the supervisory compliance officer
                 properly oversee reviews     position, which is needed to provide proper
                 and case preparation for     supervision of reviews and case preparation.                                                       Final action
                 appropriate sanctions and    FSIS's priority is to fill these positions as soon                                                 accepted
   8             determinations.              as possible.                                         Yes                None      Yes              May 16, 2003.

                    Exhibit E - FSIS Response to the Draft Report
                                                                                                                                 Exhibit E - Page 1 of 5




                    USDA/OIG-A/24001-4-At                                                                                                           Page 51
USDA/OIG-A/24001-4-At   Page 52
Exhibit E - FSIS Response to the Draft Report
                                                Exhibit E - Page 2 of 5




USDA/OIG-A/24001-4-At                                        Page 53
Exhibit E - FSIS Response to the Draft Report
                                                Exhibit E - Page 3 of 5




USDA/OIG-A/24001-4-At                                        Page 54
Exhibit E - FSIS Response to the Draft Report
                                                Exhibit E - Page 4 of 5




USDA/OIG-A/24001-4-At                                        Page 55
Exhibit E - FSIS Response to the Draft Report
                                                                                                Exhibit E - Page 5 of 5




          FSIS Response
          As referenced in Exhibit B of the report, on August 28, 2002, the OCFO granted
          FSIS final action for recommendation No. 3. The OIG indicated that the
          Corrective action was partially completed since written guidelines on the use of
          Nonresponder reports hove not been provided to the District Offices.

          FSIS will issue additional guidance on the use and interpretation of the laboratory
          nonresponders report by October 2004.

If you have any questions, please contact [                        ].

Enclosures (3)




USDA/OIG-A/24001-4-At                                                                                        Page 56
